APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Third
Circuit
(November 24, 2020) . . . . . . . . . . . App. 1
Appendix B Opinion in the United States District
Court Eastern District of Pennsylvania
(February 22, 2019) . . . . . . . . . . App. 61
Appendix C Order in the United States District
Court Eastern District of Pennsylvania
(February 22, 2019) . . . . . . . . . . App. 78

App. 1

APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1687
[Filed: November 24, 2020]
_______________________________________
LISA M. FOLAJTAR,
)
)
Appellant
)
)
v.
)
)
ATTORNEY GENERAL OF THE
)
UNITED STATES; ACTING DIRECTOR, )
BUREAU OF ALCOHOL, TOBACCO,
)
FIREARMS, AND EXPLOSIVES;
)
DIRECTOR OF THE FEDERAL
)
BUREAU OF INVESTIGATION;
)
UNITED STATES OF AMERICA
)
_______________________________________)
_____________________
Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 5-18-cv-02717)
District Judge: Honorable Joseph F. Leeson, Jr.
____________________
Argued November 12, 2019

App. 2
Before: AMBRO, KRAUSE, and BIBAS, Circuit
Judges
(Opinion filed: November 24, 2020)
Adam J. Kraut
Joshua Prince (Argued)
Prince Law Offices
646 Lenape Road
Bechtelsville, PA 19505
Counsel for Appellant
Joseph H. Hunt
Assistant Attorney General
William M. McSwain
United States Attorney
Mark B. Stern
Patrick Nemeroff (Argued)
Thais-Lyn Trayer
United States Department of Justice
Civil Division, Room 7217
950 Pennsylvania Avenue, N.W.
Washington, DC 20530
Counsel for Appellees
Joseph G.S. Greenlee
Firearms Policy Coalition
1215 K Street, 17th Floor
Sacramento, CA 95814
Counsel for Amicus Appellants
Firearms Policy Coalition Inc.; Firearms Policy
Foundation; Firearms Owners Against Crime;
Second Amendment Foundation Inc.

App. 3
____________________
OPINION OF THE COURT
____________________
AMBRO, Circuit Judge
Lisa Folajtar asks us to decide whether Congress
may prohibit individuals convicted of federal tax fraud
from possessing firearms. To answer this question, we
rely on the general rule that laws restricting firearm
possession by convicted felons are valid. Because we
find no reason to deviate from this longstanding
prohibition in the context of tax fraud, we reject
Folajtar’s as-applied constitutional challenge.
Folajtar pled guilty in 2011 to a federal felony:
willfully making a materially false statement on her
tax returns, which is punishable by up to three years’
imprisonment and a fine up to $100,000. 26 U.S.C.
§ 7206(1).1 The Court was more lenient, sentencing her
to three-years’ probation, including three months of
home confinement, a $10,000 fine, and a $100
assessment. She also paid the IRS over $250,000 in
back taxes, penalties, and interest. Folajtar’s conviction
1

Section 7206 is titled “[f]raud and false statements,” and
§ 7206(1) is titled “[d]eclaration under penalties of perjury.” We
colloquially refer to any offense under § 7206, including § 7206(1),
as criminal tax fraud. See Ray A. Knight & Lee G. Knight,
Criminal Tax Fraud: An Analytical Review, 57 Mo. L. Rev. 175,
179 (1992); see also Kawashima v. Holder, 565 U.S. 478, 483–84
(2012) (explaining that although § 7206(1) does not include fraud
as a formal element, it qualifies under the Immigration and
Nationality Act as a deportable offense involving fraud or deceit);
United States v. Taylor, 574 F.2d 232, 234 (5th Cir. 1978) (“Section
7206(1) is a fraud statute.”).

App. 4
left her subject to 18 U.S.C. § 922(g)(1), which prohibits
those convicted of a crime punishable by more than one
year in prison2 from possessing firearms.3 Congress
enacted the prohibition in the 1960s, thus expanding
substantially a 1938 ban prohibiting those convicted of
“crimes of violence”4 from receiving a firearm. See
Omnibus Crime Control and Safe Streets Act of 1968,
Pub. L. No. 90-351, tit. IV, § 925, 82 Stat. 197, 233–34;
id. at tit. VII § 1202, 82 Stat. at 236 (codified at 28
U.S.C. § 922(g)(1)).
2

Because the charge associated with § 922(g)(1) is a “felon in
possession of a firearm,” some refer to any crime subject to
§ 922(g)(1) as a felony. When we use the term “felony,” we are
typically referring to offenses labeled as a felony by Congress or
the relevant state legislature. The federal definition of a felony is
“a crime punishable by imprisonment for a term exceeding one
year.” 18 U.S.C. §§ 922(g)(1), 3559(a). States vary in their
definition of a felony. Section 922(g)(1) applies to federal felonies
and state convictions (regardless of label) that satisfy the federal
definition of a felony, although it excludes state misdemeanors
punishable by a term of imprisonment of two years or less. See id.
§§ 921(g)(1), 921(a)(20)(B).
3

Section 922(g)(1) is part of a statutory scheme that also bars
eight other groups of persons from possessing guns, including
fugitives, drug addicts, persons previously committed to mental
institutions, persons under a court order prohibiting them from
threatening a partner or child, those with misdemeanors or
convictions for crimes of domestic violence, undocumented or
non-immigrant aliens, persons dishonorably discharged from the
military, and persons who have renounced their United States
citizenship. Id. § 922(g).
4

The statute in 1938 defined “crime of violence” as murder,
manslaughter, rape, mayhem, kidnapping, burglary,
housebreaking and various types of aggravated assault. See
Federal Firearms Act, ch. 850, § 1(6), 52 Stat. 1250, 1250 (1938).

App. 5
In 2018, Folajtar filed a lawsuit in the District
Court asserting that applying § 922(g)(1) to her
violated her Second Amendment right to possess
firearms. The Government moved to dismiss Folajtar’s
suit, arguing that, “[b]ecause Folajtar pleaded guilty to
a federal felony, she is categorically excluded from the
class of citizens entitled to possess a firearm.” App. Vol.
II, 26. Applying our precedents in United States v.
Marzzarella, 614 F.3d 85 (3d Cir. 2010), and Binderup
v. Attorney General, 836 F.3d 336 (3d Cir. 2016) (en
banc), the District Court determined that Folajtar did
not state a plausible Second Amendment claim because
she was convicted of a serious crime. She appeals to us.
The District Court had jurisdiction over Folajtar’s
constitutional challenge under 28 U.S.C. § 1331. We
have appellate jurisdiction under 28 U.S.C. § 1291. We
exercise plenary review over the dismissal of Folajtar’s
complaint under Fed R. Civ. P. 12(b)(6). Phillips v. Cty.
of Allegheny, 515 F.3d 224, 230 (3d Cir. 2008).
Consistent with our precedents, we hold that the
legislature’s designation of an offense as a felony is
generally conclusive in determining whether that
offense is serious. Because we determine the felony
here is a serious crime, Folajtar is not protected by the
Second Amendment, and her as-applied challenge to
§ 922(g)(1) fails.
A. Those who commit serious crimes are excluded
from the Second Amendment’s protections.
The Second Amendment provides: “A well regulated
Militia, being necessary to the security of a free State,
the right of the people to keep and bear Arms, shall not
be infringed.” U.S. Const. amend. II. In District of

App. 6
Columbia v. Heller, 554 U.S. 570 (2008), the Supreme
Court interpreted the Amendment’s right to bear arms
as an individual right, at least for the core purpose of
allowing “law-abiding, responsible citizens to use arms
in defense of hearth and home.” Id. at 635.
But that right “is not unlimited.” Id. at 626. Heller
“did not cast doubt on such longstanding regulatory
measures as ‘prohibitions on the possession of firearms
by felons.’” McDonald v. City of Chicago, 561 U.S. 742,
786 (2010) (quoting Heller, 554 U.S. at 626–27). To the
contrary, among the many “presumptively lawful
regulatory measures” that it identified in Heller, the
Court included “longstanding prohibitions on the
possession of firearms by felons and the mentally ill,
. . . laws forbidding the carrying of firearms in sensitive
places such as schools and government buildings, [and]
laws imposing conditions and qualifications on the
commercial sale of arms.”5 Id. at 626–27; see also Doe
v. Governor of Pennsylvania, 977 F.3d. 270, 274 (3d Cir.
2020) (“We have consistently hewed to the exceptions
that Heller preserved.”). Indeed, the Supreme Court
has repeatedly endorsed the constitutionality of
measures prohibiting firearm possession by felons after
Heller. See McDonald, 561 U.S. at 786 (“We repeat
[Heller’s] assurances here.”); see also New York State
Rifle & Pistol Ass’n, Inc. v. City of New York, 140 S. Ct.
5

While in a footnote Heller characterized this list of “longstanding
prohibitions” as “presumptively” lawful, 554 U.S. at 627 n.26,
McDonald reaffirmed the constitutionality of these “regulatory
measures” without any qualifying language, 561 U.S. at 786. We
understand Heller’s presumption language as leaving open the
possibility that a truly exceptional “felony” may fall outside the
scope of the historical bar and follow the same approach here.

App. 7
1525, 1540–41 (2020) (Alito, J., dissenting) (recognizing
historical support for constitutionality of banning
firearm possession by felons); Vartelas v. Holder, 566
U.S. 257, 271 (2012) (referencing Heller’s approval of
laws prohibiting felons from having arms).
Since Heller, we, along with every court to consider
the issue, have rejected challenges that § 922(g)(1) on
its face violates the Second Amendment. See United
States v. Barton, 633 F.3d 168, 172 (3d Cir. 2011),
overruled on other grounds by Binderup, 836 F.3d at
349; see also United States v. Bogle, 717 F.3d 281,
281–82 (2d Cir. 2013) (per curiam); Schrader v. Holder,
704 F.3d 980, 991 (D.C. Cir. 2013); United States v.
Moore, 666 F.3d 313, 318 (4th Cir. 2012); United States
v. Joos, 638 F.3d 581, 586 (8th Cir. 2011); United States
v. Torres-Rosario, 658 F.3d 110, 113 (1st Cir. 2011);
United States v. Rozier, 598 F.3d 768, 770–71 (11th Cir.
2010); United States v. Williams, 616 F.3d 685, 692
(7th Cir. 2010); United States v. Vongxay, 594 F.3d
1111, 1115 (9th Cir. 2010); United States v. McCane,
573 F.3d 1037, 1047 (10th Cir. 2009); United States v.
Anderson, 559 F.3d 348, 352 (5th Cir. 2009); cf. United
States v. Carey, 602 F.3d 738, 741 (6th Cir. 2010)
(“Because Congress’s prohibition on felon possession of
firearms is constitutional, it follows that the burdens
associated with the congressionally-created
expungement exception in 18 U.S.C. § 921(a)(20) do not
violate the Second Amendment.”). Thus § 922(g)(1) is
constitutional as written.
We do, however, permit Second Amendment
challenges to § 922(g)(1) as applied to individuals,
Barton, 633 F.3d at 172–73, which we analyze using a

App. 8
two-pronged approach first announced in Marzzarella,
614 F.3d at 89. See Holloway v. Att’y Gen., 948 F.3d
164, 171 (3d Cir. 2020); Binderup, 836 F.3d at 356.
First, the challenger bears the burden of showing that
the law hampers “conduct falling within the scope of
the Second Amendment’s guarantee.” Marzzarella, 614
F.3d at 89. Over time we have refined this prong to
require the challenger to “(1) identify the traditional
justifications for excluding from Second Amendment
protections the class of which [she] appears to be a
member, and then (2) present facts about [her]self and
[her] background that distinguish [her] circumstances
from those of persons in the historically barred class.”
Binderup, 836 F.3d at 347 (citing Barton, 633 F.3d at
173–74). If the challenger cannot meet her burden at
Step One—i.e., she cannot distinguish herself from the
historically barred class—our inquiry is complete and
her challenge fails. But if the challenger can
distinguish herself, we continue to Step Two, with the
burden shifting to the Government to show that the
law can survive heightened scrutiny. Id. at 347–48.
Until now we have not had to decide whether
§ 922(g)(1) is unconstitutional as applied to a felony
conviction. However, we have twice considered whether
the provision is unconstitutional as applied to state
misdemeanor convictions. See Holloway, 948 F.3d 164;
Binderup, 836 F.3d 336. As noted, we typically would
proceed under the first step of Marzzarella to
determine: (1) whether persons with felony convictions
fall within the historical class of those barred from
Second Amendment protection; and (2) whether
Folajtar, as one convicted of a federal tax fraud felony,
can distinguish herself from that class. As we explain

App. 9
below, our precedents instruct we can collapse these
two questions into one: Has the plaintiff overcome the
generally conclusive rule that a felony conviction is
serious, so that it falls outside the historical class of
offenses that render felons excluded from Second
Amendment protections?
In looking to the historical justification for limiting
the right to bear arms, we have recognized that many
scholars agreed that “the right to bear arms was tied to
the concept of a virtuous citizenry[;] . . . accordingly,
the government could disarm ‘unvirtuous citizens.’”
Binderup, 836 F.3d at 348 (citation omitted); see also
Vongxay, 594 F.3d at 1118. Also, “[s]everal of our sister
circuits endorse[d] the ‘virtuous citizen’ justification for
excluding felons and felon-equivalents from the Second
Amendment’s ambit.” Binderup, 836 F.3d at 348
(collecting cases). We reasoned that people who
committed or were likely to commit violent offenses
“undoubtedly qualify as ‘unvirtuous citizens’ who lack
Second Amendment rights.” Id. Further, citing Heller’s
“longstanding prohibitions on the possession of
firearms by felons,” we concluded that “[t]he category
of ‘unvirtuous citizens’ is thus broader than violent
criminals; it covers any person who has committed a
serious criminal offense, violent or nonviolent.” Id.
(citing Heller, 554 U.S. at 626).
Accordingly, we held that “persons who have
committed serious crimes forfeit the right to possess
firearms much the way they ‘forfeit other civil liberties,
including fundamental constitutional rights [e.g., the
right to vote].’” Id. at 349 (quoting Barton, 633 F.3d at
175). While our dissenting colleague and Folajtar

App. 10
attempt to define the category of those excluded from
Second Amendment protection solely by
“dangerousness,” we made clear in Binderup that the
exclusion applies to all serious crimes, and there ten
judges agreed that “the correct test at step one for
challenges to § 922(g)(1) is whether the offense is
‘serious,’ not whether the offense is violent.” Holloway,
948 F.3d at 171 n.7. When examining the seriousness
of a crime, we “presume the judgment of the legislature
is correct and treat any crime subject to § 922(g)(1) as
disqualifying unless there is a strong reason to do
otherwise.” Binderup, 836 F.3d at 351.
B. Our precedents explain that the legislature’s
designation of an offense as a felony is generally
conclusive when evaluating seriousness.
There are “no fixed criteria for determining whether
crimes are serious enough to destroy Second
Amendment rights.” Id. In Binderup, where we held
that § 922(g)(1) was unconstitutional as applied to a
challenger convicted of the state misdemeanor of
corrupting a minor (a consensual sexual relationship
with a 17 year old employee) and another who
unlawfully carried a handgun without a license, we
observed that the legislatures classified the
challengers’ offenses as misdemeanors, the crimes were
nonviolent, the punishments imposed were lenient, and
other jurisdictions also classified similar crimes as
misdemeanors. Id. at 351–53. In Holloway, we also
considered dangerousness of the offense when applying
this approach to reject an as-applied challenge to

App. 11
another misdemeanor conviction—a DUI. 948 F.3d at
173–77.6
Contrary to what the dissent suggests, see
Dissenting Op. 2, we have never held that felonies and
state misdemeanors should be analyzed similarly or
that the considerations we examined in Binderup and
Holloway should be weighed equally. Instead, we
consistently viewed the legislature’s classification of
the offense as a powerful consideration. Binderup, 836
F.3d at 352 (explaining the legislature’s label for an
offense is a “powerful expression” of its view). Our
decision in Binderup was “limited to the cases before
us, which involve[d] state-law misdemeanants . . . .
This is important because when a legislature chooses
to call a crime a misdemeanor, we have an indication of
non-seriousness that is lacking when it opts instead to
use the felony label. We [were] not confronted with
whether an as-applied Second Amendment challenge
can succeed where the purportedly disqualifying
offense is considered a felony . . . .” Id. at 353 n.6. And
while the dissent is correct we left the issue of
disarming felons open, see Dissenting Op. 5, we
remarked that while a successful as-applied challenge
by a felon is possible, the challenger’s burden would be
“extraordinarily high.” Id. Thus the legislature’s
decision to label an offense a felony is generally
6

A blink response may be that violence and dangerousness are the
same. Though there is overlap, they are not. In Binderup, we
described the consideration of “violence” as whether “the offense
had the use or attempted use of force as an element.” 836 F.3d at
352. In Holloway, we clarified that certain offenses like DUIs are
dangerous although the “use or threatened use of violence is not an
element of [the crime].” 948 F.3d at 174.

App. 12
conclusive in our analysis of seriousness, and while we
do not foreclose the possibility that a legislature could
be overly punitive and classify as a felony an offense
beyond the limits of the historical understanding, a
“non-serious felony” would be rare.7
Our differing treatment of felonies and
misdemeanors remains true to Heller’s instruction that
“longstanding prohibitions on the possession of
firearms by felons” were “presumptively lawful
regulatory measures” constraining the scope of the
right. 554 U.S. at 626–27 & n.26; Barton, 633 F.3d at
171 (“Heller’s list of ‘presumptively lawful’ regulations
is not dicta.”); see also Binderup, 836 F.3d at 359 n.3
(Hardiman, J., concurring in part) (reading Heller’s
discussion of lawful regulations as a limitation integral
to its holding).8 This approach further aligns with our
earlier reasoning that “[m]isdemeanors are, and
traditionally have been, considered less serious than
felonies.” Id. at 351 (quoting Baldwin v. New York, 399
7

In Binderup, the dissent argued that all crimes subject to
§ 922(g)(1) are disqualifying because their maximum possible
punishment was conclusive proof of their seriousness. That, we
said, “puts the rabbit in the hat” because some misdemeanors
“may be ‘so tame and technical as to be insufficient to justify the
ban.’” Binderup, 836 F.3d at 350 (quoting Torres–Rosario, 658 F.3d
at 113).
8

While our dissenting colleague attempts to cast doubt on Heller’s
general exclusion of felon disarmament laws from the scope of the
right to arms, labeling it an “aside,” Dissenting Op. 5, that
characterization falls far short of reality. Recall that the Supreme
Court reaffirmed two years later in McDonald that it “did not cast
doubt on such longstanding regulatory measures as ‘prohibitions
on the possession of firearms by felons.’” 561 U.S. at 786.

App. 13
U.S. 66, 70 (1970)). The latter “were—and remain—the
most serious category of crime [as] deemed by the
legislature.” Medina v. Whitaker, 913 F.3d 152, 158
(D.C. Cir. 2019) (Sentelle, J.).
Our approach is also consistent with that of our
sister circuits and state courts. See id. at 155 (“[N]o
circuit has held the law unconstitutional as applied to
a convicted felon.”); see also id. at 154 (“[F]elons are not
among the law-abiding, responsible citizens entitled to
the protections of the Second Amendment.”); Eugene
Volokh, Implementing the Right to Keep and Bear
Arms for Self-Defense: An Analytical Framework and
a Research Agenda, 56 UCLA L. Rev. 1443, 1498 (2009)
(collecting cases) (“Dozens of state court decisions
likewise take the view that felons (even those convicted
of nonviolent felonies) lack a constitutional right to
keep and bear arms.”). Thus, while those convicted of
felonies may bring as-applied challenges to § 922(g)(1),
they are unlikely to succeed in all but the exceptional
case.
As we elaborate below, the precedents of the
Supreme Court, our and other circuits, which hold that
felonies are serious enough to ban firearm possession,
find support in history and the general deference courts
accord to a legislature’s policy determination of what is
serious.
1. History confirms that felons committed
serious crimes.
A felony unquestionably encompasses a broader
array of crimes today than it did in 1791. Nonetheless,
at the Second Amendment’s ratification felonies

App. 14
comprised “the most serious category of crime[s,]” just
as they do now. Medina, 913 F.3d at 158 (citing
Hamilton v. Pallozzi, 848 F.3d 614, 626 (4th Cir.
2017)). We inherited the term from England, where in
its earliest form it referred to a “breach of the feudal
obligations between lord and vassal,” the consequence
of which was “forfeiture of goods and the escheat of the
fief.” Will Tress, Unintended Collateral Consequences:
Defining Felony in the Early American Republic, 57
Clev. St. L. Rev. 461, 463 (2009). As the term evolved
to refer to a broader category of crimes, felons faced
serious consequences: From at least twelfth-century on
in England, felonies were punishable by death or the
loss of goods and land. Id. at 463–64.
Although the number of felonies at common law is
limited,9 legislatures quickly began to expand the list.
Francis Bacon, writing in the seventeenth century, lists
at least thirty-four felonies punishable by death and
forfeiture. Many of these crimes are violent, such as
burglary, rape, arson, and murder; but others are not,
including unlawful hunting and repeated forgery. See
Francis Bacon, Preparation for the Union of Laws of
England and Scotland, in 2 The Works of Francis
Bacon 163–64 (Basil Montagu ed., Cary & Hart 1844);
see also Medina, 913 F.3d at 158 (citing 4 William
Blackstone, Commentaries on the Laws of England *95
(Harper ed. 1854)). Harsh punishment for felonies

9

The nine traditional felonies at common law are murder,
manslaughter, arson, burglary, robbery, rape, sodomy, mayhem,
and larceny. See Tress, supra, at 464 (citing Francis Wharton,
Treatise on the Criminal Law of the United States 1 (Philadelphia,
James Kay, Jun. & Brother 1846)).

App. 15
continued into the eighteenth century even as the
number of crimes that qualified expanded. Blackstone
writes that “no less than a hundred and sixty [offenses]
have been declared by act of parliament [ ] to be
felonies.” 4 William Blackstone, Commentaries *18.
American colonists imported the English concept of
felonies and their consequences into their legal
systems. The death penalty was ubiquitous in the
Founding Era, see Baze v. Rees, 553 U.S. 35, 94 (2008)
(Thomas, J., concurring) (citing Stuart Banner, The
Death Penalty: An American History 23 (2002)), used
even to punish non-violent felonies such as forgery and
horse theft. Medina, 913 F.3d at 158 (citing Banner,
supra, at 18); see also John D. Bessler, Cruel &
Unusual: The American Death Penalty and the
Founders’ Eighth Amendment 56–57 (2012) (listing
crimes the First Congress made “punishable by
hanging, including treason, murder on federal land,
forgery, [dealing in] forged securities, counterfeiting,
and piracy on the high seas”); Kathryn Preyer, Penal
Measures in the American Colonies: An Overview, 26
Am. J. Legal Hist. 326, 330–32, 342, 344, 345–47 (1982)
(discussing the use of capital punishment in
eighteenth-century Virginia, Massachusetts,
Pennsylvania, and New York). The widespread,
continued condemnation of felons, including those who
committed non-violent offenses, to death demonstrates
that in 1791 Americans understood felons, as a group,
to commit serious crimes.
Given this, “it is difficult to conclude that the public,
in 1791, would have understood someone facing death
and estate forfeiture to be within the scope of those

App. 16
entitled to possess arms.” Medina, 913 F.3d at 158.
Americans in the Founding Era also believed “[i]t is
because the people are civilized, that they are with
safety armed.” David B. Kopel, The Posse Comitatus
and the Office of Sheriff: Armed Citizens Summoned to
the Aid of Law Enforcement, 104 J. Crim. L. &
Criminology 761, 794 (2014) (quoting the diplomat and
Jeffersonian Republican Joel Barlow). They saw the
armed citizenry, in other words, as a bulwark of
liberty, see Robert E. Shalhope, The Armed Citizen in
the Early Republic, 49 Law & Contemp. Probs. 125,
131–32 (1986), in contrast to felons who could not be
trusted, see Kopel, supra, at 789 n.154 (noting that
under English law the sheriff could traditionally
summon armed citizens to pursue fleeing felons,
including thieves). Thus, the eighteenth-century
American’s right to bear arms was intimately tied to
long-standing practices that explicitly separated the
class of armed law-abiding citizens from felons. “[N]o
one . . . denies these historically grounded and sensible
explanations behind the exceptions: Legislatures have
authority . . . to impose lifetime gun-possession bans on
felons as a safety measure and as a legitimate
consequence of a felony conviction[.]” Tyler v. Hillsdale
Cty. Sheriff’s Dep’t, 837 F.3d 678, 708 (6th Cir. 2016)
(Sutton, J., concurring).
By the turn of the nineteenth century, Americans
began to revise the penalties for felonies, reducing their
severity and increasing the use of incarceration. See
Tress, supra, at 473. The First Congress outlawed
forfeiture of estate as a punishment for felons under
federal law. Austin v. United States, 509 U.S. 602, 613
(1993). States passed laws replacing capital

App. 17
punishment with incarceration, using the term “felony”
to denote crimes that required time in prison to
“reform[] [ ] the convict’s character,” in contrast to less
serious crimes “that only required a sharp reminder to
obey the law.” Tress, supra, at 468. The punishment for
felons extended to forfeiture of certain fundamental
rights, including the right to vote. See Richardson v.
Ramirez, 418 U.S. 24, 51 (1974) (noting that the act
admitting Arkansas in 1868 provided it could
disenfranchise those convicted of felonies at common
law “as a punishment for such crimes.”). Thus, even as
the term evolved and expanded, felonies continued to
reflect the category of serious crimes committed by
those outside the virtuous citizenry.
2. Our approach accords proper deference to the
legislature’s determination.
Our approach is not only consistent with history
and tradition, but further safeguards the separation of
powers by allowing democratically constituted
legislatures, not unelected judges, to decide in most
cases what types of conduct reflect so serious a breach
of the social compact as to justify the loss of Second
Amendment rights. “When the legislature,” in this case
Congress, “designates a crime as a felony, it signals to
the world the highest degree of societal condemnation
for the act,” Medina, 913 F.3d at 160. In upholding
Congress’s decision to disarm individuals who commit
felonies, we respect the legislatures’ choices about
which crimes count as serious and preserve the states’
traditional autonomy to “define crimes [and]
punishments.” Danforth v. Minnesota, 552 U.S. 264,
280 (2008). This ensures that disarmament decisions

App. 18
reflect the views and values of our communities, as well
as the expertise and experience of legislatures “‘far
better equipped than the judiciary’ to make sensitive
public policy judgments.” See Kachalsky v. Cty. of
Westchester, 701 F.3d 81, 97 (2d Cir. 2012) (quoting
Turner Broad. Sys., Inc. v. FCC, 512 U.S. 622, 665
(1994)); United States v. Skoien, 614 F.3d 638, 640 (7th
Cir. 2010) (Easterbrook, J.) (observing that “the
legislative role did not end in 1791” and that, in some
cases, the Second Amendment “leav[es] to the people’s
elected representatives the filling in of details”).
Indeed, we defer to the legislature’s determination
that individuals convicted of felonies may forfeit other
fundamental rights, such as the right to vote and to sit
on a jury, the former being the essence of our
democracy. See 28 U.S.C. § 1865(b)(5); Richardson,
418 U.S. at 56; see also Reynolds v. Sims, 377 U.S. 533,
555 (1964) (“The right to vote . . . is of the essence of a
democratic society, and any restrictions on that right
strike at the heart of representative government.”). As
felons are rarely protected by the Second Amendment,
Congress is also normally entitled to require
disarmament as a result of a felony conviction without
engaging in an evaluation of each felon’s rehabilitation
and likelihood to engage in further criminal activity of
any kind. See Medina, 913 F.3d at 160–61. Accordingly,
Congress has the flexibility to decide which crimes are
captured by § 922.10 For instance, it determined that
10

Folajtar also cites 18 U.S.C. § 925(c), which allows those
prohibited from possessing firearms under § 922(g)(1) to apply to
the Attorney General for relief. We explained in Binderup that this
program is “a matter of legislative grace; the Second Amendment

App. 19
those convicted of antitrust felonies should not be
covered by the statute because those crimes were only
classified as felonies in a handful of states and were not
felonies under federal law. See 18 U.S.C.
§ 921(a)(20)(A); S. Rep. No. 89-1866, at 77 (1966).
Practical considerations confirm the wisdom of this
approach. Perhaps most important, our holding avoids
the administrative difficulties that would result from
applying a dangerousness standard to felonies. Should
the dissent’s proposal prevail, district courts would face
the unenviable task of weighing the relative
dangerousness of hundreds of offenses already deemed
sufficiently serious to be classified as felonies. Would
the selling of mislabeled food or drugs, for example,
count as a dangerous offense? See 21 U.S.C. § 331.
What about prescribing opioids without a legitimate
medical purpose? See 21 U.S.C. § 841(a). Or allowing
toxic chemicals to leach into a public waterway? See 33
U.S.C. § 1319(c)(2)(B).
This problem is not alleviated by describing the
category as “crimes of violence” rather than
“dangerous” offenses, as some have suggested. See
Dissenting Op. 24; Binderup, 836 F.3d at 370

does not require that those who commit serious crimes be given an
opportunity to regain their right to keep and bear arms in that
fashion.” 836 F.3d at 350. Further, Congress’s decision to defund
the program exemplifies that a robust system of as-applied
challenges to § 922(g)(1) is unworkable. Id. at 403 (Fuentes, J.,
concurring in part and dissenting in part) (“Congress effectively
wr[o]te § 925(c) out of the statute books . . . [b]ecause it concluded
that the task of granting individual applications for relief from
§ 922(g)(1) was too prone to error.” (emphasis omitted)).

App. 20
(Hardiman, J., concurring). “[I]ndeterminacy about
how to measure the risk posed by a crime [and]
indeterminacy about how much risk it takes for the
crime to qualify as a violent felony . . . produce[ ] more
unpredictability and arbitrariness than the Due
Process Clause tolerates.” Johnson v. United States,
576 U.S. 591, 598 (2015); accord United States v. Davis,
588 U.S. ––––, 139 S. Ct. 2319, 2336 (2019); Sessions v.
Dimaya, 584 U.S. –––– , 138 S. Ct. 1204, 1223 (2018).
Under our approach, those who commit felonies are on
notice that they are committing a serious offense, and,
with rare exceptions, that they thereby forfeit their
rights under the Second Amendment. By giving
primary weight to the legislature’s determination, our
approach is no doubt more administrable.
C. The dissent’s focus on dangerousness alone is too
narrow.
Even if we put aside administrative concerns, the
dissent’s position that only dangerousness should be
considered in our analysis would raise serious
institutional concerns given the clearly established
precedents in our Circuit and elsewhere. And in any
event the dissent adopts an overly narrow view of
danger that is inconsistent with historical readings.
In addition to parting with the overwhelming
consensus among our sister circuits, see supra 13, the
dissent’s standard would require us to ignore the
Supreme Court’s general exclusion of all felons from
the scope of the Second Amendment right, see Heller,
554 U.S. at 626–27; McDonald, 561 U.S. at 786;
contradict our own precedents making clear that
seriousness of the offense defines the historical class

App. 21
for criminal offenses, see Binderup, 836 F.3d at 350
(Ambro, J.); id. at 387 (Fuentes, J., concurring in part
and dissenting in part); Holloway, 948 F.3d at 171; and
stray too far into the province of the legislative branch.
This we should not do.
The dissent is largely rehashing the same sources
and arguments as Judge Hardiman’s Binderup
concurrence. See Dissenting Op. 6–9. But our Court has
repudiated three times in just the past four years that
concurrence’s narrow focus on dangerousness. Ten of
the fifteen judges to participate in Binderup rejected it,
making explicit their conclusion was part of Binderup’s
holding and not a dictum. See 836 F.3d at 356 (“[T]he
following is the law of our Circuit . . . . [A] challenger
must prove that he was not previously convicted of a
serious crime[.]” (emphasis added)). A subsequent
panel of our Court similarly recognized that “the
historical justification for disarming felons was because
they had committed serious crimes, [and the] risk of
violent recidivism was irrelevant.” Beers v. Att’y Gen.,
927 F.3d 150, 156 (3d Cir. 2019), judgment vacated on
other grounds, Beers v. Barr, 140 S. Ct. 2758 (Mem.)
(May 18, 2020).
And again, earlier this year, we reiterated that in
Binderup “ten judges agreed that the correct test . . . is
whether the offense is ‘serious,’ not whether the offense
is violent.” Holloway, 948 F.3d 171 n.7. If stare decisis
means anything, it means that we cannot, without
gravely impugning the stability and legitimacy of the
judiciary, revisit the position so recently espoused by a
majority of our en banc court and by two panels since.
As the Chief Justice recently explained, stare decisis

App. 22
“must give way only to a rationale that goes beyond
whether the case was decided correctly.” June Med.
Servs. L.L.C. v. Russo, 140 S. Ct. 2103, 2134 (2020)
(Roberts, C.J., concurring). We see no such ground for
revisiting Binderup, Beers, or Holloway today, and the
dissent highlights none.
We need not fully repeat the historical analysis in
our precedents but note for completeness that the
dissent’s dangerousness standard is also inconsistent
with history. While colonial Virginia permitted the
constable to “take away Arms from such who ride, or
go, offensively armed, in Terror of the People,” and
bring the person and their arms before a Justice of the
Peace, see George Webb, The Office of Authority of a
Justice of Peace 92–93 (1736), other colonies did not
require violence or dangerousness for disarmament.
For example, Connecticut prohibited those who
defamed or libeled acts of Congress from keeping arms.
See G.A. Gilbert, The Connecticut Loyalists, 4 Am.
Hist. Rev. 273, 282 (1899). Similarly, Pennsylvania law
required any “person [who] ‘refuse[d] or neglect[ed] to
take the oath or affirmation’ of allegiance to the state
. . . to deliver up his arms to agents of the state, and he
was not permitted to carry any arms about his person
or keep any arms or ammunition in his ‘house or
elsewhere.’” Saul Cornell & Nathan DeDino, A Well
Regulated Right: The Early American Origins of Gun
Control, 73 Fordham L. Rev. 487, 506 (2004) (quoting
Act of Apr. 1, 1778, ch. LXI, § 5, 1777-1778 Pa. Laws
123, 126). Massachusetts also disarmed “such Persons
as are notoriously disaffected to the Cause of America,
or who refuse to associate to defend by Arms the

App. 23
United American Colonies.” Id. at 507 (quoting Act of
Mar. 14, 1776, ch. VII, 1775-1776 Mass. Acts 31, 31).11
Later, at their ratification conventions, several
states proposed amendments limiting the right to bear
arms to both law-abiding and “peaceable” citizens. The
Anti-Federalists in Pennsylvania issued the Address
and Reasons of Dissent of the Minority of the
Convention of the State of Pennsylvania to Their
Constituents, which proposed that “the people have a
right to bear arms for the defense of themselves and
their own State or the United States, or for the purpose
of killing game; and no law shall be passed for
disarming the people or any of them unless for crimes
committed, or real danger of public injury from
individuals . . . .” 2 Bernard Schwartz, The Bill of
Rights: A Documentary History 662, 665 (1971)
(emphasis added). “Heller identified . . . [this report] as
a ‘highly influential’ ‘precursor’ to the Second
Amendment.” Binderup, 836 F.3d at 349 (citation
omitted). Other states proposed similar amendments.
New Hampshire proposed that “Congress shall never
disarm any citizen, unless such as are or have been in
actual rebellion,” see 1 Debates in the Several State
Conventions on the Adoption of the Federal
Constitution 326 (Jonathan Elliott ed., 2d ed. J.B.
Lippincott 1891), and Massachusetts submitted that

11

The dissent contends that these latter three laws were about
dangerousness. Dissenting Op. 7–8. Not so. Refusing to swear an
oath, defaming acts of Congress, or failing to defend the colonies do
not of themselves qualify as dangerous. The same is true of the
examples cited by the dissent of refusing to swear allegiance or
loyalty to the sovereign.

App. 24
“the said Constitution be never construed . . . to
prevent the people of the United States[] who are
peaceable citizens . . . from keeping their own
arms . . . .” See Schwartz, supra, at 681. While the
dissent attempts to shoehorn all of these proposals and
laws into the silo of dangerousness, a more accurate
reading recognizes that while some ratification and
legislative bodies at the Founding focused on the
dangers that certain people posed, others disarmed a
broader portion of the populace based on “virtuousness”
and the seriousness of the crime, just as we explained
in Binderup. Neither we nor the dissent has unearthed
any evidence that the laws or proposed amendments
were then thought to be unconstitutional.
No doubt some of the laws at the Founding were
concerned about dangerousness. The dissent’s
cherry-picked history only shows that dangerousness
was one reason to restrict firearm possession, but it
hardly was the only one. It is hence insufficient to
highlight those laws disarming the dangerous when the
constitutional coverage is broader.
The dissent claims that the felon-in-possession
provision is wildly overinclusive. See Dissenting Op. 25.
To the contrary, it is the dissent’s dangerousnessfocused approach that is wildly underinclusive in
failing to explain many Founding Era firearms
regulations. What concerned the Framers was that
“virtuous citizens” retain the right to bear arms,
Binderup, 836 F.3d at 348; they had no interest in
extending the same guarantee to those who act counter
to society’s welfare, whether by violent or non-violent
acts. That is why Connecticut disarmed libelers, see

App. 25
Gilbert, supra at 282, and why Pennsylvania
Anti-Federalists proposed stripping all criminals of the
right to bear arms, see Schwartz, supra at 665. None of
these restrictions narrowly target citizens who
committed inherently violent or dangerous crimes.
And there is good reason not to trust felons, even
non-violent ones, with firearms. As one of our sister
circuits observed, nonviolent offenders are at higher
propensity for committing violent crimes. See Kanter v.
Barr, 919 F.3d 437, 449 (7th Cir. 2019) (noting several
studies establishing a connection between non-violent
offenses and a risk of future violent crime). The dissent
claims that these studies “lump tax fraudsters together
with burglars and drug dealers[,]” Dissenting Op. 25,
but supplemental tables to the U.S. Department of
Justice report cited in Kanter clarified the data by
explicitly separating fraud offenders from both burglars
and drug offenders, as well as those who committed
robbery or larceny. See Matthew R. Durose, et al., U.S.
Dep’t of Justice, Bureau of Justice Statistics,
Supplemental Tables: Most Serious Commitment
Offense and Types of Post-Release Arrest Charges of
Prisoners Released in 30 States in 2005, at t.2 (2016).
About thirty percent of burglars and twenty-five
percent of drug offenders who were sentenced to at
least a year of imprisonment were subsequently
arrested for a violent crime within five years of their
release from state prison, compared with about twenty
percent of fraud or forgery offenders. Id. The dissent
admits that “disarming burglars and drug dealers
makes sense,” Dissenting Op. 25, but the small
difference in the risk of future violent crime between
those crimes and fraud cannot support the dissent’s

App. 26
position that the legislature can use these “rules of
thumb” to disarm burglars and drug dealers, but not
felons for fraud crimes.
As the dissent would have it, the Second
Amendment mandates that those who have flouted the
laws of the land and shown utter disregard for the
welfare of their fellow citizens—felons like Bernard
Madoff (convicted of various counts of fraud, perjury
and money laundering in connection with the largest
Ponzi scheme in history), Jeffrey Skilling (the CEO of
Enron convicted of fraud and insider trading), and
Jordan Belfort (author of The Wolf of Wall Street
convicted of fraud and stock market manipulation)—
must be trusted with a firearm if their felonies were
“merely” white-collar (read non-dangerous) crimes. The
above-referenced laws reflect otherwise, and we decline
to hold that legislatures may regulate only the firearm
possession of dangerous felons when the constitutional
coverage extends to all those who cannot be trusted to
carry firearms responsibly because they committed
serious crimes.
D. Folajtar does not overcome the general rule that
her felony is a serious crime.
As felony status is generally conclusive evidence
that the offense is serious, we ask whether Folajtar’s
offense is so exceptional for it to fall outside the
historical bar. She asserts that her felony conviction is
distinguishable from the “longstanding prohibitions on
the possession of firearms by felons” in Heller, 554 U.S.
at 626, because it is not among the nine English
common law felonies or the felony convictions requiring
disarmament in the 1938 Federal Firearms Act. We are

App. 27
unpersuaded.12 As we explained in Binderup, “the
category of serious crimes changes over time as
legislative judgments regarding virtue evolve.” 836
F.3d at 351. Hence “exclusions need not mirror limits
that were on the books in 1791.” Id. (quoting Skoien,
614 F.3d at 641).
In any case, Folajtar’s felony is not obviously less
serious than the historical felonies as she would
suggest. To violate 26 U.S.C. § 7206(1), a defendant
must, while “under the penalties of perjury,” submit a
tax return that “[s]he does not believe to be true and
correct as to every material matter.” By making a tax
return that she knew to be false, Folajtar willfully
deprived the Government of its property. This act is no
less serious than larceny, one of the nine common law
felonies, or forgery, one of the first felonies in the
United States. See supra 14–15; see also Hamilton, 848
F.3d at 627 (“Theft, fraud, and forgery are not merely
errors in filling out a form or some regulatory
misdemeanor offense; these are significant offenses
reflecting disrespect for the law.”); Abdelqadar v.
Gonzales, 413 F.3d 668, 671 (7th Cir. 2005)

12

Folajtar also urges us to reconsider our holding that the passage
of time cannot restore a convicted felon’s Second Amendment
rights. As we are bound by Binderup, 836 F.3d at 349–350, we
decline to consider this request as well. See also Medina, 913 F.3d
at 160 (“Nor can [an individual’s] present contributions to his
community, the passage of time, or evidence of his rehabilitation
un-ring the bell of his conviction.”); Hamilton, 848 F.3d at 626
(“[E]vidence of rehabilitation, likelihood of recidivism, and passage
of time are not bases for which a challenger might remain in the
protected class of law-abiding, responsible citizen[s].” (internal
quotation marks and citation omitted)).

App. 28
(Easterbrook, J.) (“Crimes entailing deceit or false
statement are within the core of the common-law
understanding of ‘moral turpitude.’”). Indeed, a
conviction for violating § 7206(1) “necessarily entail[s]
deceit.” Kawashima, 565 U.S. at 485 (holding that a
violation of § 7206(1) can be serious enough to be an
aggravated felony and deportable offense under the
Immigration and Nationality Act); see also Jordan v.
De George, 341 U.S. 223, 229 (1951) (holding that
defrauding the United States of tax on distilled spirits
is a serious crime involving moral turpitude). Thus, we
can be confident that Folajtar’s offense falls outside
“the scope of the Second Amendment’s guarantee” to
possess firearms, Marzzarella, 614 F.3d at 89, and we
need not proceed to Step Two of the Marzzarella
analysis.
Our decision, like those of some of our sister
circuits, does not adopt a blanket rule categorically
foreclosing an as-applied challenge to § 922(g)(1) for a
felony conviction, and we do not rule out the possibility
of an exceptional federal or state felony unmoored from
the bar’s historical underpinnings. See, e.g., Hamilton,
848 F.3d 614; Kanter, 919 F.3d 437; Medina, 913 F.3d
152. But that is not the case before us today. Unlike
the dissent’s examples of felonies, see Dissenting Op.
21–22 (noting that opening a bottle of ketchup is a
felony in New Jersey, reading another person’s email
without permission is a felony in Pennsylvania, and
uttering obscene language on radio communications is
a federal felony), tax fraud, akin to falsifying
information on a bank loan application in Medina, is a
felony that “reflect[s] grave misjudgment.” Medina, 913

App. 29
F.3d at 158 (internal quotation marks and citation
omitted).
*

*

*

*

*

Legislatures have always regulated the right to bear
arms. Heller, 554 U.S. at 626; 1 William Blackstone,
Commentaries *139 (describing the English right to
bear arms, which protected the right “of having arms
for their defence, suitable to their condition and degree,
and such as are allowed by law”); Lawrence Rosenthal,
The Limits of the Second Amendment Originalism and
the Constitutional Case for Gun Control, 92 Wash. U.
L. Rev. 1187, 1210 (2015) (noting that at the Founding
laws disarmed certain groups, such as those unwilling
to swear allegiance to the Revolution). Heller
recognizes that the Second Amendment permits a
broad bar for felons, and our historical analysis
confirms that generally conclusive ban. When Folajtar
committed a federal felony of materially misstating her
tax liability, a serious crime, she removed herself from
the constitutionally protected class of “law-abiding
citizens.” Thus her claim fails at Marzzarella Step One.
The dissent’s concern for the rehabilitation of
convicted criminals is commendable, and we agree with
our dissenting colleague that, as illustrated by
nineteenth-century state and federal legislatures’
decisions to reduce the use of capital punishment and
focus on the rehabilitation of convicted criminals,
society need not implement the law according to the
outer boundaries of what is constitutional. But the
choice society has made in this case, by way of
Congress’s enactment of the felon-in-possession statute
and the tax felony statute under which Folajtar was

App. 30
convicted, lies within those boundaries. Thus, if
Folajtar and others in her position wish to seek
recourse, it is to the legislature, and not to the
judiciary, that their efforts should be directed. We thus
affirm.
BIBAS, Circuit Judge, dissenting.
Today, the majority holds that the Government may
disarm all felons except when it may not. My colleagues
endorse a near-categorical rule with a hint of an escape
hatch and clothe everything with the authority of
Heller and Binderup. Maj. Op. 6, 10–14. But the clothes
do not fit. Neither case decided whether nondangerous
felons should lose their Second Amendment rights. And
a closer look at the majority opinion shows that it
strays from Binderup’s method of analyzing as-applied
challenges.
To see the majority’s missteps, we must be clear
about what it holds: It is essentially a blanket ban.
When a legislature labels a crime a felony, that label is
“generally conclusive,” and the Government may
disarm felons. Maj. Op. 6. Though in theory a few
felonies might be too minor to count, the majority never
defines this caveat. All it says is that such felonies are
“rare exceptions.” Maj. Op. 20.
Yet abdicating to labels is unfaithful to our
precedent. The three-judge opinion in Binderup
scrutinized limits on Second Amendment rights by
looking at four factors: whether the crime is violent,
whether it is a felony, whether other jurisdictions agree
that it is serious, and whether the sentence imposed is
severe. 836 F.3d at 351–53. Holloway added a fifth

App. 31
factor related to violence: dangerousness. 948 F.3d at
172–77; Maj. Op. 11. And under the five-judge
Binderup concurrence, we would focus “on the
legitimate (i.e., traditional) concern that justifies the
dispossession of certain offenders: we cannot trust
them not to commit violent crimes with firearms.” 836
F.3d at 374. Both tests weigh danger, either directly or
through the lens of violence. Yet today, the majority
sets aside dangerousness, violence, the sentence
imposed, and cross-jurisdictional consensus.
Instead, the majority shears the multi-factor test in
Binderup and Holloway down to a single factor:
whether the legislature labeled the crime a felony. It
emphasizes that its rule defers to the legislature and is
administratively convenient. These were the same
arguments made by the Binderup dissent. 836 F.3d at
400–03 (Fuentes, J., dissenting). There, the dissent
pushed for a categorical rule like the one the majority
adopts today. Id. at 388. It rejected the possibility of
as-applied challenges. A majority of our Court,
however, let as-applied challenges proceed and succeed.
As an original matter, the majority’s rule also
conflicts with the historical limits on the Second
Amendment. Those limits protect us from felons, but
only if they are dangerous. Yet the majority endorses a
near-blanket ban. It allows disarming virtually all
felons, even nondangerous ones, based on two related
historical claims: First, it argues that the right to bear
arms was limited to the virtuous. Second, it asserts
that at the Founding, felons were unvirtuous because
they had committed serious, indeed capital, crimes.

App. 32
Both claims overread the history. The historical
touchstone is danger, not virtue. Though the majority
relies largely on scholars and other circuits for its
theory, its layers and layers of citations are mainly
inapt. Most of the historical sources involved people
who were dangerous. And most of the articles and cases
rely on one another, adopt historical readings rejected
by Heller, or even repudiate the majority’s rule. When
one sees through the layers, the emperor is not quite
naked, but at most he is wearing a loincloth.
The majority makes no more headway by arguing
that felonies are serious. Today, because the felony
label is arbitrary and manipulable, many felonies are
far less serious than those at common law. Even
historically, there is no evidence that all felons were
disarmed as part of their punishment. Gun restrictions
on those jailed and awaiting execution tell us nothing
about criminals who had paid their debts to society and
been freed. Most punishments were temporary. We
punished the crime, not the criminal. The colonists did
not treat ex-cons as a permanently exiled underclass,
forever branded “unvirtuous.”
The majority’s extreme deference gives legislatures
unreviewable power to manipulate the Second
Amendment by choosing a label. “Unvirtuousness”
based on the felony label is a mushy standard that sets
no limit. We must not reflexively defer to that label
when a fundamental right is at stake, but rather
require narrow tailoring to public safety.
Felons are more than the wrongs they have done.
They are people and citizens who are part of “We the
People of the United States.” U.S. Const. pmbl. So they

App. 33
too share in the Second Amendment “right of the
people to keep and bear Arms,” subject only to the
historical limits on that right . Although Lisa Folajtar
was convicted of tax fraud nine years ago, she is not
dangerous. Neither the majority nor the Government
suggests otherwise. Because she poses no danger to
anyone, I respectfully dissent.
I. THE HISTORY OF THE SECOND AMENDMENT
ALLOWS DISARMING ONLY DANGEROUS FELONS
As my colleagues agree, the Second Amendment’s
scope depends on its history. Historically, limitations
on the right were tied to dangerousness. In England
and colonial America, the Government disarmed people
who posed a danger to others. Violence was one ground
for fearing danger, as were disloyalty and rebellion.
Though the Binderup plurality espoused the virtue
theory, the articles and cases that it cited mostly fit the
dangerousness test. In any event, those sources rest on
one another, promote a reading of the history rejected
by Heller, or even repudiate the rule the majority
adopts today. The right historical test is not virtue, but
dangerousness.
A. Precedent does not settle the historical test
for disarming felons
The majority begins with a mistaken premise. The
Supreme Court has not addressed the historical
pedigree of laws disarming felons. Yet the majority
reads Heller as upholding the “longstanding
prohibitions on the possession of firearms by felons.”
Maj. Op. 6 (quoting Heller, 554 U.S. at 626). But Heller
limited its remark to “longstanding” bans.

App. 34
Longstanding bans are centuries old, not within living
memory. See Heller, 554 U.S. at 626 (citing Blackstone
and 19th-century cases). The federal felon-inpossession ban, however, did not begin to reach beyond
violent crimes until 1961. An Act to Strengthen the
Federal Firearms Act, Pub. L. No. 87-342, 75 Stat. 757
(1961).
Heller’s aside also described the bans “as only
‘presumptively lawful.’” Binderup, 836 F.3d at 350
(opinion of Ambro, J.) (quoting Heller, 554 U.S. at
626–27 & n.26). “Unless flagged as irrebuttable,
presumptions are rebuttable.” Id. And its remark was
dictum. Heller did not and had no occasion to resolve
when governments may disarm felons. So like the
Seventh Circuit, we should “refuse[] to read too much
into the [Heller] Court’s ‘precautionary language.’”
Kanter v. Barr, 919 F.3d at 445 (quoting Skoien, 614
F.3d at 640).
Our own cases likewise do not resolve the historical
question for felons. The three-judge opinion in
Binderup expressly left open the issue of disarming
felons. 836 F.3d at 353 n.6. Later, a panel in Beers read
Binderup to say that “the historical justification for
disarming felons was that they were ‘unvirtuous.’” 927
F.3d at 156 (quoting Binderup, 836 F.3d at 348),
vacated, 140 S. Ct. 2758 (2020) (mem.). But Beers was
vacated, so it is not precedent. And Holloway dropped
a footnote, relying on the now-vacated decision in Beers
to “set forth the Binderup majority holdings.” 948 F.3d
at 170–71 & n.5. So that footnote was built on sand
that has since washed away. Plus, neither panel
decision did a Marks analysis of the fractured opinions

App. 35
in Binderup. Marks v. United States, 430 U.S. 188, 193
(1977). And none of our cases involved felons. See
Beers, 927 F.3d at 152 (mentally ill persons); Doe, 977
F.3d at 274 (same); Holloway, 948 F.3d at 168
(first-degree misdemeanant); see also id. at 174–75
(stressing that the felony/misdemeanor label is hardly
dispositive).
Thus, the issue of disarming felons is open.
Precedent does not settle its historical limits. Rather,
we must analyze the history ourselves and ask: Were
all felons, dangerous and nondangerous alike, equally
excluded from the Second Amendment? No, they were
not.
B. Historically, Second Amendment rights
were limited for dangerous—but not
nondangerous—felons
The history of felon disarmament is well canvassed
by Judge Hardiman’s concurrence in Binderup, 836
F.3d at 367–74, as well as then-Judge Barrett’s dissent
in Kanter, 919 F.3d at 453–64. Their analyses show
that the limit on the Second Amendment right was
pegged to dangerousness, not some vague notion of
“virtue.” I draw heavily on then-Judge Barrett’s
research below, which goes well beyond the sources in
Binderup. Both English and early American law,
through the Founding, reflected the dangerousness
test.
1. English and early American laws disarmed the
dangerous. Stripping the right to bear arms does have
ancient origins. In England, royal officers could seize
arms from those who were “dangerous to the Peace of

App. 36
the Kingdom.” Militia Act of 1662, 13 & 14 Car. 2, c.3,
§ 13. And they could seize arms from and imprison
“people who [went] armed to terrify the King’s
subjects.” Sir John Knight’s Case, 87 Eng. Rep. 75, 76
(K.B. 1686), both quoted in Kanter, 919 F.3d at 456–57
(Barrett, J., dissenting). Both sources authorized
disarming the dangerous.
The American colonies had similar laws. They were
particularly fearful of the disloyal, who were
potentially violent and thus dangerous. Some colonies,
like Virginia and Massachusetts, disarmed Catholics
“on the basis of allegiance, not on the basis of faith,”
“with the intent of preventing social upheavals” and
“rebellion.” Robert H. Churchill, Gun Regulation, the
Police Power, and the Right to Keep Arms in Early
America: The Legal Context of the Second Amendment,
25 Law & Hist. Rev. 139, 157 (2007); Alexander
DeConde, Gun Violence in America 22–23 (2001), both
quoted in Kanter, 919 F.3d at 457 (Barrett, J.,
dissenting).
During the American Revolution, Massachusetts
and Pennsylvania disarmed loyalists to the Crown who
refused to swear allegiance to the state or the United
States to “eliminate[] the opportunity for [them] to
violently protest the actions of the [state] government.”
Cornell & DeDino at 506–07. Connecticut likewise
disarmed seditious loyalists because “the welfare of the
people was jeopard[iz]ed through the hostile influence
of Tories.” Gilbert at 281–82. It did so on the advice of
the Continental Congress to “secure every person, who,
going at large, might in their opinion endanger the
safety of the colony or liberties of America.” Id. at 281.

App. 37
And after Shays’s Rebellion, the Massachusetts
legislature made rebels “who had taken up arms
against the state” swear allegiance and give up their
arms for three years before they could be pardoned.
Cornell & DeDino at 507–08.
The majority misreads the disarming of loyalists as
about virtue, because refusing to swear loyalty was not
a dangerous action. Maj. Op. 22–23 & n.11. That
misses the point. Loyalists were potential rebels who
were dangerous before they erupted into violence. The
colonists understandably feared that loyalists
endangered both them and the nascent Republic as the
loyalists struggled to keep America in the British fold.
To ensure peace and safety, the colonies had to disarm
them. The touchstone was not virtue, but danger.
2. The proposals from the state ratifying conventions
do not support a broader rule. Little evidence from the
Founding supports a near-blanket ban for all felons. I
cannot find, and the majority does not cite, any case or
statute from that era that imposed or authorized such
bans. See Kanter, 919 F.3d at 454 (Barrett, J.,
dissenting). Instead, the majority cites proposals made
during the constitutional ratifying conventions of three
colonies. Maj. Op. 23–24. Yet this evidence is thin and
mostly consistent with focusing on dangerousness.
New Hampshire limited its proposal to danger. Its
convention proposed: “Congress shall never disarm any
citizen, unless such as are or have been in actual
rebellion.” 1 Elliott at 326 (emphasis added). Rebels
posed a risk of insurrection and so were dangerous.

App. 38
Massachusetts’s convention likewise was concerned
about danger. Its proposal, never adopted, would have
guaranteed the right to keep arms to “peaceable
citizens.” 2 Schwartz at 675, 681. “Peaceable” meant
“[f]ree from war; free from tumult”; “[q]uiet;
undisturbed”; “[n]ot violent; not bloody”; “[n]ot
quarrelsome; not turbulent.” 1 Samuel Johnson, A
Dictionary of the English Language (5th ed. 1773),
quoted in Kanter, 919 F.3d at 455 (Barrett, J.,
dissenting). Breach of the peace was a “violation of the
public peace, as by a riot, affray, or any tumult which
is contrary to law, and destructive to the public
tranquility.” Breach, Noah Webster, An American
Dictionary of the English Language (1828), quoted in
Kanter, 919 F.3d at 455 (Barrett, J., dissenting). So
Massachusetts’s proposal would have disarmed those
who caused physical disruptions and threatened public
safety. It did not refer to “virtue.”
The strongest support for a near-blanket exclusion
comes from the proposal of the Pennsylvania minority.
It would have guaranteed the right of arms “unless for
crimes committed, or real danger of public injury from
individuals.” 2 Schwartz at 665. But that is only one
piece of evidence. Read broadly, it would nullify our
holding in Binderup, which recognized the Second
Amendment rights of minor misdemeanants. In any
event, the proposal does not clarify the meaning of the
Second Amendment: it was suggested by a minority of
the Pennsylvania ratifying convention that failed to
persuade its own state, let alone others. A single failed
proposal is too dim a candle to illumine the Second
Amendment’s scope.

App. 39
C. The virtue theory is not supported by history
The majority disregards the traditional
dangerousness limitation. Instead, it reads the history
as limiting the right to keep and bear arms to those
who are virtuous. See Maj. Op. 9–10, 24. My colleagues
are in good company; many other circuits have adopted
that theory too. Even so, it is unfounded.
The majority draws its virtue theory from the
Binderup plurality, which claimed: “[M]ost scholars of
the Second Amendment agree that the right to bear
arms was tied to the concept of a virtuous citizenry and
that, accordingly, the government could disarm
‘unvirtuous citizens.’” 836 F.3d at 348 (alteration in
original) (quoting United States v. Yancey, 621 F.3d
681, 684–85 (7th Cir. 2010) (per curiam)). To support
that claim, the Binderup plurality cited eight academic
articles and decisions of six other circuits. 836 F.3d at
348–49. Though the list looks long and impressive, that
impression is misleading. On close inspection, each
layer lacks historical support or even undermines the
majority’s near-categorical rule.
1. The academic sources have no solid historical
foundation for the virtue theory. Start with the
academic sources. They are like the layers of a
matryoshka doll, each nested layer successively larger
with little at the core. Once we take them apart, none
proves that felons’ lack of virtue excludes them from
the Second Amendment.
To begin, three of the articles collapse into one. The
first cites no primary historical sources other than the

App. 40
state ratifying conventions discussed above, and the
other two cite that article without adding anything:
• First is Don B. Kates, Jr., Handgun Prohibition
and the Original Meaning of the Second
Amendment, 82 Mich. L. Rev. 204 (1983) (Kates,
Handgun Prohibition). Kates writes that
“[f]elons simply did not fall within the benefits of
the common law right to possess arms” because
they faced forfeiture of all goods and usually the
death penalty. Id. at 266. He also states that the
Founders did not “consider[] felons within the
common law right to arms or intend[] to confer
any such right upon them.” Id. As support, he
cites only the Massachusetts, New Hampshire,
and Pennsylvania ratifying conventions. Id. at
266 n.267. As discussed, Massachusetts and
New Hampshire’s conventions did not propose to
disarm all felons; Pennsylvania’s minority
proposal failed to persuade its own convention.
Thus, the article does not support its key
assertion. And as I discuss below, the status of
felons awaiting execution tells us nothing about
convicts who have completed their sentences.
• Second is another Don B. Kates, Jr., article: The
Second Amendment: A Dialogue, 49 Law &
Contemp. Probs. 143 (Winter 1986) (Kates,
Dialogue). Kates writes this time that “the right
to arms does not preclude laws disarming the
unvirtuous citizens (i.e., criminals).” Id. at 146.
His only source for this claim? His own previous
article. Id. at 146 n.19 (citing Kates, Handgun

App. 41
Prohibition, at
unsupported.

266).

The

point

remains

• Third is Glenn Harlan Reynolds, A Critical
Guide to the Second Amendment, 62 Tenn. L.
Rev. 461 (1995). Reynolds quotes Kates’s
Dialogue to show that felons had no right to bear
arms. Id. at 480 (quoting Kates, Dialogue, at
146). He does not discuss any historical sources
himself. So the point is still unsupported.
Another three of the articles do not even discuss
felons or crimes. These articles also rest on the
collective-rights theory that Heller rejected:
• Start with David Yassky, The Second
Amendment: Structure, History, and
Constitutional Change, 99 Mich. L. Rev. 588
(2000). Yassky asserts that “[t]he average citizen
whom the Founders wished to see armed was a
man of republican virtue.” Id. at 626. He bases
that assertion on his understanding that the
Second Amendment is not an individual right,
but one tied to an organized militia. Id. at 627.
Heller, of course, later rejected Yassky’s reading
of the history. 554 U.S. at 582, 592–602. And
Yassky does not discuss felons or crimes.
• Next is Saul Cornell, “Don’t Know Much About
History”: The Current Crisis in Second
Amendment Scholarship, 29 N. Ky. L. Rev. 657
(2002) (Cornell, Current Crisis). Cornell argues
that the Founders understood the right to bear
arms “as a civic right.” Id. at 679. Like Yassky,
he reads it as limited to “militia service,” not as

App. 42
an individual right. Id. The right, he says, “was
not something that all persons could claim, but
was limited to those members of the polity who
were deemed capable of exercising it in a
virtuous manner.” Id. Thus, as with Yassky,
Cornell’s collective-rights reading conflicts with
Heller. Plus, his evidence does not support the
conclusion he reaches. He cites Pennsylvania’s
Test Acts of 1777, which required citizens to
take loyalty oaths. See id. at 680 (citing Saul
Cornell, Commonplace or Anachronism, 16
Const. Comment. 221, 229 (1999)). Those who
refused were disarmed as “persons disaffected to
the liberty and independence of this state.”
Cornell, Commonplace or Anachronism, at 228.
That fits the general Founding-era fear that
rebels were dangerous. So his evidence does not
show that virtue, rather than danger, was the
touchstone. He also does not discuss felons or
crimes.
• Last is Saul Cornell & Nathan DeDino, A Well
Regulated Right: The Early American Origins of
Gun Control, 73 Fordham L. Rev. 487 (2004).
Cornell and DeDino write that “the Second
Amendment was strongly connected to the
republican ideologies of the Founding Era,
particularly the notion of civic virtue.” Id. at
492. They read the right as a collective one tied
to the militia, not about individual self-defense.
Id. at 496–98. As with the previous two articles,
their reading of the right as collective (not
individual) conflicts with Heller. And they do not
discuss crimes or disarming felons. Nor do they

App. 43
delve into primary sources to show that the
colonists excluded nondangerous felons from
that right as unvirtuous citizens. Instead, they
recognize that the Founders were “deeply
immersed in” the English common-law tradition.
Id. at 492. As discussed, English law disarmed
the dangerous, not the unvirtuous.
Finally, two of the articles undermine the virtue
theory and the majority’s broad ban. Indeed, the first
one says that today’s result is “next to absurd”:
• Consider Don B. Kates & Clayton E. Cramer,
Second Amendment Limitations &
Criminological Considerations, 60 Hastings L.J.
1339 (2009). Kates and Cramer, citing many of
the sources above, state that “the right to arms
was inextricably and multifariously linked to
that of civic virtu (i.e., the virtuous citizenry).”
Id. at 1359 (citing Cornell & DeDino at 492;
Kates, Handgun Prohibition at 231–33; and
Robert E. Shalhope, The Armed Citizen in the
Early Republic, 49 Law & Contemp. Probs. 125,
128 (1986), which does not mention felons or
crime). They rely on the Massachusetts ratifying
convention as proof that the Founders “would
have deemed persons convicted of any of the
common law felonies” to be unvirtuous. Id. at
1360 (emphasis added). But then they say that
it would be “next to absurd to suggest” that gun
rights should be stripped because of minor
felony convictions, like “income tax evasion.” Id.
at 1363. Kates and Cramer’s article thus
contradicts the majority’s rule today.

App. 44
• The same is true of C. Kevin Marshall, Why
Can’t Martha Stewart Have a Gun?, 32 Harv.
J.L. & Pub. Pol’y 695 (2009). It is unclear why
the Binderup plurality cited this article; it does
not even mention virtue. Marshall undermines
the virtue theory and the majority’s
near-blanket ban. He argues that the law
stripped the right only from those who posed a
“genuine present danger to others.” Id. at 728.
Canvassing primary sources, he maintains that
the English right to arms and the common law
at the time of the Founding did not categorically
disarm felons for life. See id. at 697, 714–28.
True, some felons could be disarmed—but only
“to some extent, for some time.” Id. at 728.
In short, half the articles rest on one another. Not
one cites primary sources (apart from the ratifying
conventions) that support disarming nondangerous
felons; the one that delves into primary sources on that
point (Marshall) is to the contrary. Three are not about
felons at all. Three rest on collective-rights readings
rejected by Heller. And two oppose the majority’s
near-blanket rule. Far from supporting the majority,
the scholarship in Binderup—the majority’s key
authority (Maj. Op. 9)—undercuts it.
2. Other circuits’ opinions offer no better grounding
for the virtue theory. The other circuits’ opinions relied
on by the Binderup plurality, and thus the majority,
also do not soundly support excluding nondangerous
felons based on their lack of virtue. Most rest on the
sources discussed earlier or on nothing at all. And

App. 45
though many speak of virtue, they are mostly
concerned with dangerousness.
To begin, three opinions did not even endorse the
virtue theory:
• In its pre-Heller case, the Fifth Circuit never
mentioned virtue or cited sources discussing it.
It upheld a ban on gun possession because,
“[i]rrespective of whether his offense was violent
in nature, a felon has shown manifest disregard
for the rights of others.” United States v. Everist,
368 F.3d 517, 519 (5th Cir. 2004). But it did not
delve into the Second Amendment’s history, as
Heller requires. Instead, it stressed that letting
felons have guns “would otherwise threaten the
security of his fellow citizens.” Id. So the concern
is felons’ danger, not lack of virtue.
• The same is true of the First Circuit. Citing
several of the scholars above, that court noted
that the Founders sometimes spoke in terms of
civic virtue. United States v. Rene E., 583 F.3d 8,
15 (1st Cir. 2009) (citing Reynolds at 480;
Shalhope at 130; Cornell, Current Crisis, at 679;
Cornell, Commonplace or Anachronism, at 233;
and the Pennsylvania minority proposal). Yet
the First Circuit did not adopt the virtue theory
itself, saying only that there was “an ongoing
debate” on the issue that it did not have to
resolve. Id. at 16. It also rightly understood that
any historical virtue limitation would rest on
whether “a certain class of individuals would
pose a serious danger to the public.” Id. Again,
danger is the key.

App. 46
• In upholding a ban on gun possession by those
convicted of domestic violence, the Seventh
Circuit never mentioned virtue. Skoien, 614 F.3d
at 642. And though it cited three sources as
support for disarming criminals, none justifies
that conclusion as a historical matter. Id. at 640
(citing the Pennsylvania minority proposal;
Marshall at 700–13; and Stephen P. Halbrook,
The Founders’ Second Amendment 273 (2008)
(asserting that New Hampshire’s proposal must
have implicitly excluded criminals without citing
any authority for that assertion)). It also argued
that categorical restrictions are permissible
because “such a recent extension [in the 1960’s]
of the disqualification to non-violent felons
(embezzlers and tax evaders, for example) is
presumptively constitutional, as Heller said in
note 26.” Id. (emphasis added). But footnote 26
said nothing about recent extensions or
nonviolent felons. All it said was that
“longstanding prohibitions on the possession of
firearms by felons” are “presumptively lawful.”
Heller, 554 U.S. at 627 & n.26 (emphasis added).
That is no support for the virtue theory.
Another three of the opinions adopted the virtue
theory, though in cases about violent felons or people
who posed dangers for reasons apart from criminal
records:
• The Seventh Circuit embraced the virtue theory
(mixed with dangerousness) in upholding a ban
on gun possession by habitual drug users, not
felons. Yancey, 621 F.3d at 683 (upholding 18

App. 47
U.S.C. §922(g)(3)). The ban was needed, it noted,
“to keep guns out of the hands of presumptively
risky people” and thus “suppress[] armed
violence.” Id. at 683–84. The court analogized
habitual drug users to felons, noting their lack of
virtue and the greater risk that they will become
violent. Id. at 684–85. Banning gun possession
by nonviolent felons, it admitted, may be “wildly
overinclusive.” Id. at 685. But the court thought
that felons as a category are more dangerous, so
the government may forbid them to possess
guns. Id. All that was dicta because the case
involved habitual drug users, not nonviolent
felons.
• The Eighth Circuit likewise invoked the virtue
theory to justify disarming felons. United States
v. Bena, 664 F.3d 1180, 1183–84 (8th Cir. 2011).
It rested on the scholarship and ratifying
conventions discussed above. Id. (citing Kates,
Dialogue, at 146; Kates & Cramer, at 1359 &
n.120; Reynolds at 480–81; and the proposals of
the Massachusetts and Pennsylvania minority
at their ratifying conventions). And because the
felony it addressed was domestic violence, the
Eighth Circuit had no occasion to consider
nondangerous felons. See id.
• Finally, the Fourth Circuit cited the virtue
theory as a reason to disarm illegal aliens.
United States v. Carpio-Leon, 701 F.3d 974,
979–80 (4th Cir. 2012). It quoted Yancey and
Vongxay and cited many of the articles and
proposals discussed earlier. Id. (citing Reynolds

App. 48
at 480; Kates, Dialogue, at 143, 146; Yassky at
626; Cornell, Current Crisis, at 671; Cornell &
DeDino at 506; and the Massachusetts and New
Hampshire ratifying conventions). But it
connected the virtue rationale to the idea that
illegal aliens, having no allegiance to our
country, could be considered “disloyal or
dangerous.” Id. at 980. The case was about
aliens, not felons. And once again, the
touchstone is danger.
Of the other circuits, the Ninth Circuit was the only
one to adopt the virtue theory as a reason to disarm all
felons. Vongxay, 594 F.3d at 1118, cited in Maj. Op. 8,
9. Yet it rested on the thin scholarship above. Id.
(relying on Kates, Dialogue, at 146; and Reynolds at
480). It also noted the ongoing historical debate, citing
Marshall as to the contrary. Id.
In short, all these articles and cases show that the
virtue theory is flimsy. Most of the evidence dovetails
with dangerousness. The focus on virtue rests on
strained readings of colonial laws and ratifying
conventions perpetuated by scholars and courts’ citing
one another’s faulty analyses. The only piece of
historical evidence that comes close to endorsing a ban
of all former felons is a Pennsylvania minority proposal
that was rejected. None of this proves that the
Founders limited the Second Amendment right to
virtuous citizens and excluded all felons.

App. 49
II. THE CATEGORY OF FELONIES IS MANIPULABLE
AND LESS SERIOUS THAN IT WAS
Disarming all felons not only ignores history, but
also gives legislatures unfettered power over a
fundamental right. Though felons at the Founding
obviously could not have guns while jailed and awaiting
execution, that does not tell us how to treat felons who
serve their sentences and go free. And the label “felony”
is too easy for legislatures and prosecutors to
manipulate.
A. The felony label does not entail losing all
rights
The majority gives dispositive weight to the felony
label because “even as the term evolved and expanded,
felonies continued to reflect the category of serious
crimes.” Maj. Op. 17. Its notion of “seriousness” rests
on the harsh penalties felonies used to carry: death,
both actual and (some would add) civil. See Maj. Op.
14–17. Because a felon would have been executed and
would have lost all her rights at the time of the
Founding, the majority implies, Folajtar must lose her
Second Amendment rights now.
But even before the Founding, the link between
felonies and capital punishment was frayed. The
American colonies curtailed England’s Bloody Code.
See Stuart Banner, The Death Penalty: An American
History 6 (2002); David Garland, Peculiar Institution:
America’s Death Penalty in an Age of Abolition 115
(2010). Even crimes that were capital in theory often
were not in practice. The colonies carried out the death
penalty “pretty sparingly,” and “[p]roperty crimes were,

App. 50
on the whole, not capital.” Lawrence M. Friedman,
Crime and Punishment in American History 42 (1993).
Colonial Pennsylvania, for instance, on average
sentenced fewer than two people per year to die and
executed only one of those two per year. Id. Founding
Father, law professor, and Supreme Court Justice
James Wilson explained that even though the term
“felony” was “very strongly connected with capital
punishment,” “[a]t the common law, few felonies,
indeed, were punished with death.” James Wilson, 2
The Works of James Wilson 348 (Chicago: James
DeWitt Andrews ed., 1896).
As the death penalty became less prevalent, felonies
became decoupled from the common-law doctrine of
civil death. “Civil death was a state in which a person
‘though living, was considered dead.’” Kanter, 919 F.3d
at 459 (Barrett, J., dissenting) (quoting Harry David
Saunders, Note, Civil Death—A New Look at an
Ancient Doctrine, 11 Wm. & Mary L. Rev. 988, 988–89
(1970)). For felons, it was “a transitional status in the
period between a capital sentence and its execution,”
used to wrap up the felon’s affairs. Id. (quoting Gabriel
J. Chin, The New Civil Death: Rethinking Punishment
in the Era of Mass Incarceration, 160 U. Pa. L. Rev.
1789, 1797 (2012)). It extinguished most of a felon’s
civil rights. Chin at 1790.
Because civil death was tied to a death sentence, its
meaning had to change as states moved away from
capital punishment to imprisonment. Kanter, 919 F.3d
at 459 (Barrett, J., dissenting). It had been limited to
the time before execution, not designed to run for
decades. Id. at 460 (citing Chin at 1797). In the end,

App. 51
courts “settled uncomfortably on an American version
of civil death that required explicit statutory
authorization and deprived a felon of many, but not all,
rights.” Id. And for felons sentenced to less than life,
the courts understood their rights as “merely
suspended during the term of the sentence.” Id. at 461
(citing cases from the New York, California, and
Virginia Supreme Courts).
Thus, “[t]he obvious point that the dead enjoy no
rights does not tell us what the founding-era
generation would have understood about the rights of
felons who lived, discharged their sentences, and
returned to society.” Id. at 462. We would never say, for
instance, that because the state used to execute felons,
it may now permanently strip them of their freedom of
speech or religion. Id. at 461–62. It makes no sense to
argue that the historical treatment of felons about to be
executed licenses us to strip surviving felons of their
rights once they have paid their debts to society. We
can and should continue restrictions based on public
safety: that is protective, not punitive. But it is harsh
to keep stigmatizing ex-cons as “unvirtuous,” as if their
criminal record will forever remain an indelible stain.
B. The felony label is vague and manipulable
Most felonies today are far removed from those
capital crimes at common law. We often see little
rhyme or reason in which crimes are labeled felonies.
For instance, a radio talk show host can become a felon
for uttering “any obscene, indecent, or profane
language by means of radio communication.” 18 U.S.C.
§ 1464. In New Jersey, opening a bottle of ketchup at
the supermarket and putting it back on the shelf is a

App. 52
third-degree felony, punishable by up to five years’
imprisonment. See Paul H. Robinson et al., Report on
Offense Grading in New Jersey 3 (2011) (citing N.J.
Stat. Ann. §§2C:40-17a, 2C:43-6.a(3) (West 2010)). And
in Pennsylvania, reading another person’s email
without permission is a third-degree felony, punishable
by up to seven years. Paul H. Robinsonet al., The
Modern Irrationalities of American Criminal Codes: An
Empirical Study of Offense Grading, 100 J. Crim. L. &
Criminology 709, 719 & nn.44, 46 (2010) (citing 18 Pa.
Const. Stat. Ann. §7613 (West Supp. 2010)).
All this goes to show that today, a felony is
whatever the legislature says it is. The category is
elastic, unbounded, and manipulable by legislatures
and prosecutors. Prosecutors often persuade
legislatures to add more crimes to that category to give
themselves more plea-bargaining options and leverage.
See William J. Stuntz, The Pathological Politics of
Criminal Law, 100 Mich. L. Rev. 505, 523–33, 536–37
(2001). In some states, a defendant’s Second
Amendment rights might even hinge on how
prosecutors choose to prosecute them. In California,
“wobbler” laws let prosecutors choose between charging
a crime as a felony or a misdemeanor. Ewing v.
California, 538 U.S. 11, 16–17 (2003) (plurality
opinion).
Normally, we would not inquire too deeply into why
a legislature passed a criminal statute or picked a
punishment. A felony’s sentence is “purely a matter of
legislative prerogative,” subject only to rational-basis
review. Rummel v. Estelle, 445 U.S. 263, 274 (1980); see
Heller, 554 U.S. at 628 n.27.

App. 53
But we defer far less when a fundamental right is at
stake. We recognized as much in Binderup. There, the
Government argued that maximum sentences alone
suffice to prove that defendants can lose their Second
Amendment rights. 836 F.3d at 350 (opinion of Ambro,
J.). The three-judge opinion rightly rejected that
approach. Otherwise, “the Government could make an
end-run around the Second Amendment and
undermine the right to keep and bear arms.” Id. at
350–51.
The Binderup three-judge opinion also recognized
that we must not “defer blindly” to maximum possible
punishments because “some offenses may be ‘so tame
and technical as to be insufficient to justify the ban.’”
683 F.3d at 350–51 (quoting Torres-Rosario, 658 F.3d
at 113). So it is “important” to look at the sentence
imposed on a specific defendant. Id. at 352. That is a
truer sign of whether a particular crime is “serious” or
“minor.” Id.
Today, the Government proposes the same blanket
rule as it did in Binderup, just adapted to felonies. The
majority now takes its bait. And it tries to have its cake
and eat it too, adopting a rule that is somehow
supposed to be both clear and flexible. It says that
some felonies are so “unmoored from the bar’s
historical underpinnings” that they might not require
disarming a felon. Maj. Op. 28. But all we can glean is
that this undefined exclusion is “rare” and “truly
exceptional.” Maj. Op. 7 n.5, 20, 28. That gives courts
zero guidance. In practice, the exclusion may well prove
illusory.

App. 54
Under the majority’s extreme deference to felony
labels, much will still depend on the vagaries of states’
criminal codes. For example, many states treat
adultery as a misdemeanor. See, e.g., Fla. Stat.
§798.01; N.Y. Penal Law §255.17. In Oklahoma,
however, it is a felony punishable by up to five years’
imprisonment. 21 Okla. Stat. § 872. And in
Pennsylvania, adultery is not even a crime. Even so,
under today’s near-blanket rule, an Oklahoma
adulterer would lose his gun rights in Pennsylvania,
though a New York adulterer would not. The Second
Amendment right to keep and bear arms should not
hinge on such arbitrary, manipulable distinctions.
Setting aside the undefined exception, the
majority’s near-categorical approach seems simple,
clear, and administratively convenient. Yet those are
the same advantages that the Binderup dissent
advanced and the three-judge opinion and concurrence
rejected by allowing as-applied challenges. Compare
Maj. Op. 19–20 and Binderup, 836 F.3d at 409
(Fuentes, J., dissenting), with id. at 353 n.5 (opinion of
Ambro, J.) and id. at 357 n.1 (Hardiman, J.,
concurring).
The majority’s near-blanket rule is also far from
narrowly tailored. Heller mandates heightened
scrutiny, not rational-basis review. 554 U.S. at 628
n.27. And either strict or intermediate scrutiny calls for
narrow tailoring, not convenient blanket rules. See
Gratz v. Bollinger, 539 U.S. 244, 275 (2003) (holding
that the “administrative challenges” of “providing
individualized consideration” do not justify bypassing
“narrow[] tailor[ing]”). Legislatures, we have held,

App. 55
must tailor gun restrictions to fit a proper objective:
here, public safety. Marzzarella, 614 F.3d at 98.
True, legislatures may use careful rules of thumb to
classify some felonies as dangerous. For instance,
though residential burglary and drug dealing are not
necessarily violent, they are dangerous because they
often lead to violence. Quarles v. United States, 139 S.
Ct. 1872, 1879 (2019); Harmelin v. Michigan, 501 U.S.
957, 1002–03 (1991) (Kennedy, J., concurring in part
and concurring in the judgment). Disarming burglars
and drug dealers makes sense because their past
crimes were inherently dangerous. But some tailoring
is still essential. The majority errs in adopting a
near-blanket rule relying on statistics that lump tax
fraudsters together with burglars and drug dealers,
tarring all felons as dangerous simply because some
are. Maj. Op. 25 (citing Kanter, 919 F.3d at 449). Even
its supplemental statistics say nothing about criminal
records: those statistics fail to distinguish fraudsters
who have prior records of violence, burglary, or drug
dealing from first-time offenders like Folajtar. Durose
at tbl. 2, cited in Maj. Op. 25. And stripping a person’s
fundamental rights based on projected crimes
untethered from past dangerous actions is a risky game
indeed. In any event, we should be wary of blessing a
“wildly overinclusive” form of civil death for all felons,
far removed from history or danger. Yancey, 621 F.3d
at 685.
III. RESTORING FELONS TO SOCIETY IS TIED TO
RESTORING THEIR RIGHTS
Finally, felons are people too. A person is not
reducible to her worst act. Once she has paid her debt

App. 56
to society, she should have a chance to reenter the
community as an equal. Restoring felons to our polity
requires restoring their rights.
Judges often play no role in deciding whether to
restore certain rights. Because of some laws’ text or
history, legislatures make many of the judgment calls.
Take the Thirteenth Amendment. It authorizes
involuntary servitude as punishment for a crime. Or
take the Fourteenth Amendment. Section Two of that
amendment authorizes legislatures to deprive felons of
the vote. Richardson, 418 U.S. at 54. Legislatures, not
courts, must decide when to take away and when and
how to restore these rights. Thus, efforts to restore
voting rights are properly before legislatures, not us.
See Felon Voting Rights, Nat’l Conf. of State Legis.
(July 28, 2020), https://www.ncsl.org/research/elect
ions-and-campaigns/felon-voting-rights.aspx.
But when the text or history of a law gives judges a
role in protecting that right, or the law or precedent is
unclear, we should be slow to bless permanent
restrictions divorced from legitimate needs. That is
true of the Second Amendment. The text does not
define “the people” as “the virtuous” or “non-felons.”
Nor does its history support disarming nondangerous
felons. On the contrary, restoring felons’ rights to keep
and bear arms is in keeping with our history. In the
colonial era, most punishments were temporary. Only
a sliver of convicts were executed or exiled. Most faced
short-term punishments like warnings, fines, or
restitution. Friedman at 37–39; Edgar J. McManus,
Law and Liberty in Early New England: Criminal
Justice and Due Process, 1620–1692, at 167–68, 171,

App. 57
173–74, 201–10 (1993) (tabulating typical crimes and
penalties in seventeenth-century Massachusetts,
Connecticut, and Rhode Island).
Once wrongdoers had paid their debts to society, the
colonists forgave them and welcomed them back into
the fold. In Middlesex County, Massachusetts, 67 of 73
colonial criminals studied were reintegrated back into
society in documented ways: they later served as
militia officers, public officials, church elders, and the
like. Eli Faber, Puritan Criminals: The Economic,
Social, and Intellectual Background to Crime in
Seventeenth-Century Massachusetts, in XI Perspectives
in American History 137–44 (Donald Fleming ed. 1978)
(“Although [the Puritans] subjected offenders to public
punishments and church confessions, they did not
condemn them to exclusion and isolation for long years
to come.”).
The Quaker colonies of the Delaware Valley, today
Pennsylvania and western New Jersey, likewise readily
readmitted convicts to social prominence. A study of
more than a thousand criminal charges found that
after their convictions, recidivists were about as likely
to become church leaders and much more likely to hold
public office than the general population. William M.
Offutt, Jr., Of “Good Laws” and “Good Men”: Law and
Society in the Delaware Valley, 1680–1710, at 186–91
& tbl. 28 (1995) (“[E]ven repetitive charges did not
carry a disqualifying stigma.”). That historian
concluded: “Clearly, the criminal law touched in some
way every level of this society; just as clearly such
accusations did not ostracize the defendant from
further participation in public life.” Id. at 186.

App. 58
In short, the colonists recognized no permanent
underclass of ex-cons. They did not brand felons as
forever “unvirtuous,” but forgave. We must keep that
history in mind when we read the Second Amendment.
It does not exclude felons as an untouchable caste.
*

*

*

*

*

Lisa Folajtar asks us to treat her as an equal
member of society. Though her tax-fraud conviction
affects some of her privileges, it does not change her
right to keep and bear arms. As an original matter, the
Second Amendment’s touchstone is dangerousness.
Historically, all citizens enjoyed that right unless they
posed a danger. Because she is not dangerous, we
should not exclude her from her Second Amendment
right.
Even under the multi-factor test, dangerousness,
violence, and the sentence imposed are significant. Yet
the majority sets aside almost all the factors weighed
in Binderup. Instead, it attaches near-dispositive
weight to the felony label. Historically, it is true that
felons had no right to guns while they were jailed and
awaiting execution. But that “civil death” does not fit
long after a nondangerous felon reenters society. And
most felonies today are far less serious than capital
crimes.
Nobody claims that Lisa Folajtar poses a danger.
Because neither history nor precedent supports
disarming her for tax fraud, I respectfully dissent.

App. 59
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1687
[Filed: November 24, 2020]
_______________________________________
LISA M. FOLAJTAR,
)
)
Appellant
)
)
v.
)
)
ATTORNEY GENERAL OF THE
)
UNITED STATES; ACTING DIRECTOR, )
BUREAU OF ALCOHOL, TOBACCO,
)
FIREARMS, AND EXPLOSIVES;
)
DIRECTOR OF THE FEDERAL
)
BUREAU OF INVESTIGATION;
)
UNITED STATES OF AMERICA
)
_______________________________________)
_____________________
Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 5-18-cv-02717)
District Judge: Honorable Joseph F. Leeson, Jr.
____________________
Argued November 12, 2019
Before: AMBRO, KRAUSE, and BIBAS,
Circuit Judges
JUDGMENT

App. 60
This cause came on to be heard on the record before
the United States District Court for the Eastern
District of Pennsylvania and was argued on November
12, 2019.
On consideration whereof, IT IS ORDERED AND
ADJUDGED by this Court that the judgment of the
District Court entered February 25, 2019, is hereby
affirmed. Costs taxed against the Appellant. All of the
above in accordance with the opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: November 24, 2020

App. 61

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF PENNSYLVANIA
No. 5:18-cv-02717
[Filed: February 22, 2019]
_______________________________________
LISA M. FOLAJTAR,
)
Plaintiff,
)
)
v.
)
)
1
WILLIAM P. BARR,
)
Attorney General of the United States;
)
THOMAS E. BRANDON,
)
Acting Director, Bureau of Alcohol,
)
Tobacco, Firearms, and Explosives;
)
and CHRISTOPHER A. WRAY,
)
Director of the Federal Bureau of
)
Investigation
)
Defendants. )
_______________________________________)
OPINION

1

Pursuant to Federal Rule of Civil Procedure 25(d), Attorney
General Barr, as former Acting General Whitaker’s successor, is
automatically substituted as the defendant in this action. See Fed.
R. Civ. P. 25(d).

App. 62
Defendants’ Motion to Dismiss for Failure to
State a Claim, ECF No. 3—Granted
Joseph F. Leeson, Jr.
February 22, 2019
United States District Judge
I.

INTRODUCTION

Plaintiff was convicted of filing a false tax return
over seven years ago. Now, as a convicted felon, she is
prohibited from owning firearms by federal law. A
claim that the federal law is unconstitutional under the
Second Amendment as applied to her has been
brought.2 Defendants move to dismiss the complaint in
its entirety under Federal Rule of Civil Procedure
12(b)(6). For the reasons set forth below, the motion to
dismiss is granted.
II.

BACKGROUND3

In 2011 Lisa Folajtar pled guilty in the Eastern
District of Pennsylvania to filing a false tax return, a
felony subject to possible fine up to $100,000,
imprisonment for up to three years, or both. The
Honorable James Knoll Gardner sentenced Folajtar to
three years’ probation, including three months of home
2

“Unlike a facial challenge, an as-applied challenge ‘does not
contend that a law is unconstitutional as written but that its
application to a particular person under particular circumstances
deprived that person of a constitutional right.” Binderup v. AG of
United States, 836 F.3d 336, 345–46 (3d Cir. 2016) (quoting United
States v. Mitchell, 652 F.3d 387, 405 (3d Cir. 2011)).
3

The background information in this section is taken from the
complaint and is set forth as if true. See Phillips v. Cnty. of
Allegheny, 515 F.3d 224, 228 (3d Cir. 2008).

App. 63
confinement with an electronic monitoring device, a
$10,000 fine, and a mandatory $100 special
assessment.4 She completed her probation without any
violations.
Folajtar wants to obtain firearms and ammunition
to defend herself and her family within their home and
a Federal Firearms License for Archery Addictions,
LTD, a Pennsylvania corporation of which she is
President. Federal law, however, bars her from owning,
possessing, using, or purchasing a firearm or
ammunition. After learning of this bar, Folajtar has not
attempted to purchase a firearm or apply for a Federal
Firearms License for Archery Addictions for fear of
violating federal law. As a result, she filed the
complaint in this matter seeking declaratory and
injunctive relief. The Attorney General of the United
States, Acting Director of the Bureau of Alcohol,
Tobacco, Firearms, and Explosives, Director of the
Federal Bureau of Investigation, and the United States
(collectively, the “Government”) move to dismiss the
4

In the sentencing colloquy, Judge Gardner indicated that the
“much more modest fine” of $10,000 was appropriate and a greater
fine was not necessary because of the considerable financial impact
of the $257,796.39 restitution payment. Tr. Sentenc. Proc. At
55:14–21, USA v. Folajtar, No. 11-cr-00175, ECF No. 19. The
transcript is a matter of public record and appears in the record of
Folajtar’s criminal case, which she referenced in her complaint.
Buck v. Hampton Twp. Sch. Dist., 452 F.3d 256, 260 (3d Cir. 2006)
(“In evaluating a motion to dismiss, we may consider documents
that are attached to or submitted with the complaint and any
matters incorporated by reference or integral to the claim, items
subject to judicial notice, matters of public record, orders, and
items appearing in the record of the case.” (internal citations and
quotations omitted)).

App. 64
complaint in its entirety with prejudice under Federal
Rule of Civil Procedure 12(b)(6).
III.

LEGAL STANDARDS

Federal Rule of Civil Procedure 12(b)(6) allows a
court to dismiss a complaint for its “failure to state a
claim upon which relief can be granted.” Fed. R. Civ. P.
12(b)(6). The Rules generally demand “only a short and
plain statement of the claim showing that the pleader
is entitled to relief, in order to give the defendant fair
notice of what the claim is and the grounds upon which
it rests.” Connelly v. Lane Constr. Corp., 809 F.3d 780,
786 (3d Cir. 2016) (citing Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555 (2007) (internal quotations omitted)).
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Twombly, 550 U.S. at 570). In rendering a decision on
a motion to dismiss, this Court must “accept all factual
allegations as true [and] construe the complaint in the
light most favorable to the plaintiff.” Phillips, 515 F.3d
at 233 (quoting Pinker v. Roche Holdings Ltd., 292 F.3d
361, 374 n.7 (3d Cir. 2002) (internal quotations
omitted)). Only if “the ‘[f]actual allegations . . . raise a
right to relief above the speculative level’” has the
plaintiff stated a plausible claim. Id. at 234 (quoting
Twombly, 550 U.S. at 555). “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.”
Iqbal, 556 U.S. at 678. However, “the tenet that a court
must accept as true all of the allegations contained in

App. 65
a complaint is inapplicable to legal conclusions.” Id.
(explaining that determining “whether a complaint
states a plausible claim for relief . . . [is] a
context-specific task that requires the reviewing court
to draw on its judicial experience and common sense”).
The defendant bears the burden of demonstrating that
a plaintiff has failed to state a claim upon which relief
can be granted. Hedges v. United States, 404 F.3d 744,
750 (3d Cir. 2005) (citing Kehr Packages, Inc. v.
Fidelcor, Inc., 926 F.2d 1406, 1409 (3d Cir. 1991)).
IV.

ANALYSIS

The Government moves to dismiss the complaint in
its entirety with prejudice. The Government argues
that Folajtar seeks an unreasonable and unsupportable
expansion of Second Amendment case law because
Congress defined her conviction as a felony—a serious
criminal offense. Folajtar argues her non-violent felony
conviction is distinguished from the class of individuals
historically barred from gun ownership.
After applying the relevant authority and the
framework established in United States v. Marzzarella
and confirmed in Binderup v. Attorney General, and for
the reasons discussed below, the Court concludes that
Folajtar does not state a plausible Second Amendment
claim, grants the Government’s motion, and dismisses
this case.
A. The Second Amendment and Challenges
to the Constitutionality of Section 922(g)
The Second Amendment states: “A well regulated
Militia, being necessary to the security of a free State,
the right of the people to keep and bear Arms, shall not

App. 66
be infringed.” U.S. Const. amend. II. These Second
Amendment rights are not without limitations. In
2008, the United States Supreme Court considered the
Second Amendment’s protections and clarified that it
protects the right to possess and use firearms for
traditionally lawful purposes, such as self-defense
within the home. District of Columbia v. Heller, 554
U.S. 570, 573 (2008). The Supreme Court explained,
however, that the right was not unlimited and that its
opinion “should not be taken to cast doubt on
longstanding prohibitions on the possession of firearms
by felons and the mentally ill . . . .” Heller, 554 U.S. at
573. Two years later, in McDonald v. City of Chicago,
the Supreme Court repeated this assurance that its
holding in Heller “did not cast doubt on such
longstanding regulatory measures as ‘prohibitions on
the possession of firearms by felons and the mentally
ill.’” 561 U.S. 742, 786 (2010).
Some of those “longstanding prohibitions” are found
in 18 U.S.C. § 922(g). Section 922(g) bars gun
ownership by felons, fugitives, drug abusers, those
adjudicated to be mentally ill, illegal aliens, those
dishonorably discharged from the military, those who
have renounced U.S. citizenship, and convicted
domestic abusers or others subject to domestic violence
restraining orders. See 18 U.S.C. § 922(g)(1)–(8).
Notwithstanding the Supreme Court’s assurances
in Heller and McDonald, the constitutionality of section
922(g) has been challenged repeatedly. See, e.g.,
Medina v. Whitaker, No. 17-5248, 2019 U.S. App.
LEXIS 1681, at *5 (D.C. Cir. Jan. 18, 2019) (listing the
outcomes of certain facial and as-applied challenges to

App. 67
section 922(g)(1) in circuits that have considered the
issue). “However, the Supreme Court ‘has not yet heard
an as-applied challenge to a presumptively lawful ban
on firearms possession.’” King v. Sessions, No. 17-884,
2018 U.S. Dist. LEXIS 100501, at *6–7 (E.D. Pa. June
15, 2018) (quoting Binderup v. Att’y Gen., 836 F.3d 336,
359 (3d Cir. 2016) (en banc), cert. denied sub nom.
Sessions v. Binderup, 137 S. Ct. 2323 (2017)). Here, in
this circuit, the United States Court of Appeals for the
Third Circuit considered the application of section
922(g)(1) as applied to two individuals convicted of
state misdemeanors in Binderup v. Attorney General.
Sitting en banc, the Third Circuit Court of Appeals
held that section 922(g)(1) violated the Second
Amendment as applied to those individuals based on
different triggering state law offenses.5 Binderup, 836
F.3d at 340–41. Its fractured decision consists of an
opinion, concurrence, and dissent.
The Third Circuit Court of Appeals’ decision has led
to other as-applied challenges to section 922(g) in this
circuit. Numerous district courts in this district and
circuit have surveyed relevant authority and addressed
similar challenges. Many of these opinions considered
other state law offenses that triggered section 922(g)(1)
and presented analyses similar to the analysis in

5

Fifteen judges on the United States Court of Appeals for the
Third Circuit took part in deciding Binderup during the en banc
appeal. Circuit Judges Ambro, Hardiman (Concurring), and
Fuentes (Dissenting) wrote opinions, but none collected a
precedential majority.

App. 68
Binderup.6 Others considered whether section
922(g)(4)’s restriction of a person’s ability to possess a
firearm when that person has been “committed to a
mental institution” violated the Second Amendment as
applied.7 Others considered whether federal felony
convictions that triggered section 922(g)(1)’s bar
violated the Second Amendment as applied.8
This case falls into the latter. Here, Folajtar
contends section 922(g)(1)’s prohibition triggered by her
federal felony conviction violates the Second
Amendment as applied. The Court analyzes her claim
using the two-step burden shifting analysis previously
articulated in Marzzarella.

6

See Miller v. Sessions, No. 17-cv-2627, 2019 U.S. Dist. LEXIS
16864 (E.D. Pa. Feb. 4, 2019); United States v. Brooks, 341 F.
Supp. 3d 566 (W.D. Pa. 2018); Gurten v. Sessions, 295 F. Supp. 3d
511 (E.D. Pa. 2018); Holloway v. Sessions, No. 17-cv-81, 2018 U.S.
Dist. LEXIS 168996 (M.D. Pa. Sep. 28, 2018); Clark v. Sessions,
336 F. Supp. 3d 535 (W.D. Pa. 2018); Zedonis v. Lynch, 233 F.
Supp. 3d 417 (M.D. Pa. 2017).
7

See Keyes v. Sessions, 282 F. Supp. 3d 858 (M.D. Pa. 2017);
Jefferies v. Sessions, 278 F. Supp. 3d 831 (E.D. Pa. 2017); Simpson
v. Sessions, No. 16-cv-1334, 2017 U.S. Dist. LEXIS 71109 (E.D. Pa.
May 9, 2017); Franklin v. Sessions, 291 F. Supp. 3d 705 (W.D. Pa.
2017).

8

See King, 2018 U.S. Dist. LEXIS 100501; Tripodi v. Sessions, 339
F. Supp. 3d 458 (E.D. Pa. 2018).

App. 69
B. The Marzzarella Framework for
As-Applied Second Amendment
Challenges
The narrowest ground supporting the United States
Court of Appeals for the Third Circuit’s fractured vote
in Binderup held that as-applied Second Amendment
challenges were cognizable and controlled by a two-step
burden shifting analysis previously articulated in
Marzzarella. Binderup v. Att’y Gen., 836 F.3d at 339
(citing United States v. Marzzarella, 614 F.3d 85 (3d
Cir. 2010)); see also United States v. Brooks, No.
17-cv-250, 2018 U.S. Dist. LEXIS 87591, at *7 (W.D.
Pa. May 24, 2018) (providing an overview of the
background, opinions, and framework from Binderup).
The Third Circuit Court of Appeals also recognized that
its decision in United States v. Barton, 633 F.3d 168 (3d
Cir. 2011) guided its analytical framework from
Marzzarella. Binderup, 836 F.3d at 346. “Read
together, Marzzarella and Barton lay out a framework
for deciding as-applied challenges to gun regulations.”
Id.
At step one of Marzzarella’s framework, Folajtar
bears the burden of showing that a presumptively
lawful regulation burdens her Second Amendment
rights. Doing so requires that she clear two hurdles:
“(1) identify the traditional justifications for excluding
from Second Amendment protections the class of which
[she] appears to be a member, and then (2) present
facts about [herself] and [her] background that
distinguish [her] circumstances from those of persons
in the historically barred class.” Id. at 346–47 (internal
citations omitted). “Not only is the burden on the

App. 70
challenger to rebut the presumptive lawfulness of the
exclusion at Marzzarella’s step one, but the
challenger’s showing must also be strong. That’s no
small task.” Id. at 347. Summed up concisely, after
Binderup, Folajtar must prove that she did not
previously commit a serious crime. Id. at 349 (“The
takeaway: persons who have committed serious crimes
forfeit the right to possess firearms much the way they
‘forfeit other civil liberties, including fundamental
constitutional rights.’” quoting Barton, 633 F.3d at
175); see also Tripodi v. Sessions, 339 F. Supp. 3d 458,
464 (E.D. Pa. 2018).
Only if Folajtar distinguishes her disqualifying
federal conviction from “serious crimes” at step one,
does the burden under Marzzarella then shift to the
Government at step two to show the regulation as
applied satisfies intermediate scrutiny. Binderup, 836
F.3d at 356. At this step, the Third Circuit Court of
Appeals instructed courts to determine “whether the
Government has made a strong enough case for
disarming a person found after step one to be eligible
to assert an as-applied challenge. This turns in part on
the likelihood that the [c]hallenger[ ] will commit
crimes in the future.” Id. at 354 n.7.
Applying the Marzzarella framework, the Court
finds that Folajtar’s claim fails at the first step.
Because Folajtar has not satisfied the factual grounds
necessary to satisfy the first step, it is not necessary for
the Court to consider step two.

App. 71
C. Applying the Marzzarella Framework
1. Step One
At the first step of the Marzzarella framework,
Folajtar must show that section 922(g)(1) burdens her
Second Amendment rights. To do so, she must
(1) identify the traditional justifications for excluding
felons from Second Amendment protections, and then
(2) present facts about herself that distinguish her
circumstances from those of persons in the historically
barred class. Binderup, 836 F.3d at 347.
Before addressing those two considerations, the
Court addresses the threshold question of whether
section 922(g)(1) burdens Folajtar’s Second
Amendment rights. The parties do not dispute
Folajtar’s federal conviction for filing a false tax return
carried a maximum possible sentence of a fine up to
$100,000, imprisonment for up to three years, or both,
and as a result, section 922(g)(1) bars her from
possessing a firearm. Under Heller and Marzzarella,
section 922(g)(1), which is presumptively lawful,
“permissibly prohibits firearms possession by an
individual such as [Folajtar] who has been convicted of
a crime punishable by a term of imprisonment
exceeding one year.” King, 2018 U.S. Dist. LEXIS
100501, at *9 (citing 18 U.S.C. § 922(g)(1)).
a. Traditional Justification
The justification for denying felons the right to keep
and bear arms dates back to the Second Amendment’s
drafting. “[M]ost scholars of the Second Amendment
agree that the right to bear arms was tied to the
concept of a virtuous citizenry and that, accordingly,

App. 72
the government could disarm ‘unvirtuous citizens.’”
Binderup, 836 F.3d at 389 (quoting United States v.
Yancey, 621 F.3d 681, 684 (7th Cir. 2010)). Those who
committed violent crimes—in which actual or
attempted violence is an element—”undoubtedly
qualify as ‘unvirtuous citizens’ who lack Second
Amendment rights.” Id. at 348. The category of
“unvirtuous citizens” is broader than those who commit
violent crimes, however, “it covers any person who has
committed a serious criminal offense, violent or
non-violent.” Id. (“To the extent Barton suggests that
people who commit serious crimes retain or regain
their Second Amendment rights if they are not likely to
commit a violent crime, 633 F.3d at 174, it is
overruled.”).
Thus, the traditional justifications for excluding
felons from Second Amendment protections turn on
whether an “unvirtuous citizen” committed a “serious
crime,” not whether the crime was violent or
non-violent. In Binderup, the United States Court of
Appeals for the Third Circuit explained:
The view that anyone who commits a serious
crime loses the right to keep and bear arms
dates back to our founding era. “Heller
identified . . . as a ‘highly influential’ ‘precursor’
to the Second Amendment the Address and
Reasons of Dissent of the Minority of the
Convention of the State of Pennsylvania to Their
Constituents.” [United States v. Skoien, 614 F.3d
638, 640 (7th Cir. 2010)] (quoting Heller, 554
U.S. at 604). That report “asserted that citizens
have a personal right to bear arms ‘unless for

App. 73
crimes committed, or real danger of public
injury.’” Id. (emphasis added) (quoting 2
Bernard Schwartz, The Bill of Rights: A
Documentary History 662, 665 (1971)). “[C]rimes
committed”—violent or not—were thus an
independent ground for exclusion from the right
to keep and bear arms. And there is reason to
believe that felon disarmament has roots that
are even more ancient. See [Don B. Kates, Jr.,
Handgun Prohibition and the Original Meaning
of the Second Amendment, 82 Mich. L. Rev. 204,
266 (1983)] (“Felons simply did not fall within
the benefits of the common law right to possess
arms.”).
The takeaway: persons who have committed
serious crimes forfeit the right to possess
firearms much the way they “forfeit other civil
liberties, including fundamental constitutional
rights.” Barton, 633 F.3d at 175.
Id. at 349.
b. Application to Folajtar
With that understanding of the traditional
justification for denying felons Second Amendment
protections, the Court’s analysis shifts to consider
whether Folajtar presents facts about herself that
distinguish her circumstances from those of persons in
the historically barred class (those who have committed
serious crimes). Unlike Binderup, where the United
States Court of Appeals for the Third Circuit analyzed
whether certain state law convictions were serious
enough to warrant statutory disqualification, the Court

App. 74
analyzes here whether a federal felony is a serious
crime. The burden on Folajtar at this point in the
analysis is “extraordinarily high.” See Binderup, 836
F.3d at 353 n.6 (“On the one hand, it is possible to read
Heller to leave open the possibility, however remote, of
a successful as-applied challenge by someone convicted
of [a disqualifying offense considered a felony by the
authority that created the crime]. At the same time,
even if that were so, the individual’s burden would be
e x t r aor d i n a r i l y h i g h — a n d p e r h a p s e v e n
insurmountable.”).
“[T]here are no fixed criteria for determining
whether crimes are serious enough to destroy Second
Amendment rights.” Id. at 351. Because “the category
of serious crimes changes over time as legislative
judgments regarding virtue evolve” the United States
Court of Appeals for the Third Circuit presumes “the
judgment of the legislature is correct and treat[s] any
crime subject to § 922(g)(1) as disqualifying unless
there is a strong reason to do otherwise.” Id. at 351. In
addition to that presumption, the Third Circuit Court
of Appeals considered the following other factors in
Binderup to determine whether the state
misdemeanors in question were serious: “(1) the
statutory maximum penalty of the crime; (2) whether
the crime is a misdemeanor; (3) whether use of force is
an element of the crime;[9] (4) the sentence actually
imposed upon the challenger; and (5) whether there is
9

Although, as explained above, a non-violent crime can be serious,
in Binderup, the United States Court of Appeals for the Third
Circuit explained that “the lack of a violence element is a relevant
consideration.” Binderup v. Att’y Gen., 836 F.3d at 352.

App. 75
consensus among the states about the seriousness of
the offense.[10]” Clark v. Sessions, 336 F. Supp. 3d 535,
542 (W.D. Pa. 2018) (citing Binderup, 836 F.3d at
351–53).
Folajtar argues that she can distinguish herself
from the class of individuals historically barred. She
compares her federal felony conviction with those state
law misdemeanor convictions in Binderup. In
Binderup, one challenger was convicted under
Pennsylvania law for corrupting a minor, and the other
challenger was convicted under Maryland law for
carrying a handgun without a license. Binderup, 836
F.3d at 340. Both of these crimes were nonviolent
misdemeanors. Id. at 375. They were excluded from the
right to bear arms because the crimes meet the generic
definition of a felony and Congress’s definition of a
felony for purposes of section 922(g)(1). Folajtar argues
that her crime of filing a false tax return “is hardly in
the same league” as to those crimes in Binderup. Pl.’s
Br. Opp’n 9, ECF No. 5. She contends that the nature
of her crime, the total maximum sentence possibility
and the sentence she received, and a
cross-jurisdictional consensus all weigh in favor of a
showing that her felony was not a serious offense. Id.
at 9–11.
This Court is not persuaded by Folajtar’s argument.
Although she argues that the conduct of her federal

10

Addressing this factor in Binderup was necessary because the
crimes in question were state law convictions. Because the crime
in question here, filing a false tax return, is a federal crime, this
factor is inapplicable.

App. 76
felony conviction is different than those state law
misdemeanors, the Binderup factors, in addition to the
judgment of Congress in labeling this crime as a felony,
weigh in favor of treating her federal felony conviction
as a serious crime The Court considered that: (1) the
statutory maximum penalty for filing a false tax return
is a fine up to $100,000 and imprisonment for up to
three years, 26 U.S.C. § 7206(1); (2) Congress labeled
this crime a felony, § 7206; (3) the elements for filing a
false tax return do not include the use or attempted use
of force; (4) and, the sentence Judge Gardner imposed
included three years’ probation, of which three months
were on home confinement with an electronic
monitoring device, and a $10,000 fine. The Court did
not consider the cross-jurisdictional consensus because
it considers that factor relevant only when the
challenge involves a state-law misdemeanant. These
factors differentiate Folajtar’s federal felony conviction
from those state law misdemeanors in Binderup.
Because the factors here weigh in favor of treating
Folajtar’s federal conviction as a serious crime, Folajtar
does not satisfy her high burden of distinguishing
herself from other felons historically excluded from the
right to bear arms. See Binderup, 836 F.3d at 347 (“Not
only is the burden on the challenger to rebut the
presumptive lawfulness of the exclusion at
Marzzarella’s step one, but the challenger’s showing
must also be strong. That’s no small task.”). Therefore,
her claim will be dismissed.11
11

As Folajtar has not satisfied the factual grounds necessary to
satisfy the first step under the Marzzarella framework, it is not
necessary for the Court to consider step two.

App. 77
V.

CONCLUSION

For the reasons stated above, Defendants’ motion to
dismiss is granted. A separate order follows.
BY THE COURT:
/s/ Joseph F. Leeson, Jr.
JOSEPH F. LEESON, JR.
United States District Judge

App. 78

APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF PENNSYLVANIA
No. 5:18-cv-02717
[Filed: February 22, 2019]
_______________________________________
LISA M. FOLAJTAR,
)
Plaintiff,
)
)
v.
)
)
1
WILLIAM P. BARR,
)
Attorney General of the United States;
)
THOMAS E. BRANDON,
)
Acting Director, Bureau of Alcohol,
)
Tobacco, Firearms, and Explosives;
)
and CHRISTOPHER A. WRAY,
)
Director of the Federal Bureau of
)
Investigation
)
Defendants.
)
_______________________________________)
ORDER

1

Pursuant to Federal Rule of Civil Procedure 25(d), Attorney
General Barr, as former Acting General Whitaker’s successor, is
automatically substituted as the defendant in this action. See Fed.
R. Civ. P. 25(d).

App. 79
AND NOW, this 22nd day of February, 2019, upon
consideration of Plaintiff’s Complaint, ECF No. 1;
Defendants’ Motion to Dismiss for Failure to State a
Claim, ECF No. 3; Plaintiff’s Response to Defendant’s
Motion to Dismiss, ECF No. 5; Defendants’ Reply, ECF
No. 6; Plaintiff’s Sur-Reply, ECF No. 9, and for the
reasons set forth in the accompanying Opinion, IT IS
ORDERED that:
1. Defendants’ Motion to Dismiss for Failure to
State a Claim, ECF No. 3, is GRANTED;
2. Plaintiff’s Complaint is DISMISSED with
prejudice; and
3. The Clerk of Court is directed to close this
matter.
BY THE COURT:
/s/ Joseph F. Leeson, Jr.
JOSEPH F. LEESON, JR.
United States District Judge

